<html>
<title> - EXAMINING VETERANS' EMPLOYMENT ISSUES IN NORTHEAST INDIANA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                 EXAMINING VETERANS' EMPLOYMENT ISSUES
                          IN NORTHEAST INDIANA

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 19, 2011

               FIELD HEARING HELD IN FORT WAYNE, INDIANA

                               __________

                           Serial No. 112-33

                               __________

       Printed for the use of the Committee on Veterans' Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE
71-385                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                            October 19, 2011

                                                                   Page

Examining Veterans' Employment Issues in Northeast Indiana.......     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    41
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared statement of Congressman Braley.....................    41

                               WITNESSES

Hon. W. Suzanne Handshoe, Mayor, Kendallville, IN................     4
    Prepared statement of Ms. Handshoe...........................    42
Mark A. Dobson, President, Warsaw-Kosciusko County Chamber of 
  Commerce, Warsaw, IN...........................................     6
    Prepared statement of Mr. Dobson.............................    43
Michael S. Landram, President and Chief Executive Officer, 
  Greater Fort Wayne Chamber of Commerce, Fort Wayne, IN.........     8
    Prepared statement of Mr. Landram............................    45
Gregg Norris, Human Resources Manager, BAE Systems, Electronic 
  Systems Sector, Fort Wayne, IN.................................     9
    Prepared statement of Mr. Norris.............................    46
Chris R. Straw, Co-Founder, Team Quality Services, Auburn, IN....    11
    Prepared statement of Mr. Straw..............................    48
LTC Anthony D. Tabler, USA (Ret.), Senior Business Development 
  Manager, Communications and Force Protection Systems, ITT 
  Electronic Systems, Fort Wayne, IN.............................    13
    Prepared statement of Colonel Tabler.........................    49
Mark W. Everson, Commissioner, Indiana Department of Workforce 
  Development, Indianapolis, IN..................................    24
    Prepared statement of Mr. Everson............................    51
Gary Tyler, Indiana State Director, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    26
    Prepared statement of Mr. Tyler..............................    55
LTC Marcus Thomas, ARNG, Indiana National Guard..................    28
    No Prepared statement of Colonel Thomas......................    --

 
       EXAMINING VETERANS' EMPLOYMENT ISSUES IN NORTHEAST INDIANA

                              ----------                              


                      WEDNESDAY, OCTOBER 19, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
the Main Branch of the Allen County Public Library, 900 Library 
Plaza, Fort Wayne, Indiana, Hon. Marlin A. Stutzman [Chairman 
of the Subcommittee] presiding.
    Members Present: Representatives Stutzman and Braley.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. I'd like to welcome you all to 
the Subcommittee hearing, the Subcommittee on Economic 
Opportunity. I want to welcome each of you here today. This is 
a great crowd. Thank you for coming out today for this official 
meeting of the Subcommittee.
    I'm Congressman Marlin Stutzman and to my left is 
Congressman Bruce Braley, who I'll introduce to you here in a 
little bit. I want to say thank you to our panelists and to 
each and every person who is here, and especially to our 
veterans today. We want to say a special thank you to you for 
your service to our country.
    Usually, when we hold hearings we are sitting in 
Washington. Today I'm delighted to be here in Fort Wayne. 
Northeast Indiana is home to 48,000 veterans. These men and 
women have served our Nation with honor, and it is my honor to 
serve as their voice in Congress on the House Veterans' Affairs 
Committee. Chairing the Subcommittee on Economic Opportunity, I 
have the opportunity of working on veterans' employment and 
education issues alongside the Ranking Member of this 
Subcommittee, the Honorable Bruce Braley, who represents Iowa's 
1st Congressional District.
    And we actually just had a hearing in Iowa on Monday and 
the hospitality in Iowa is just as generous as I hope you'll 
find here in Indiana. Earlier this week we hosted that 
committee, and we heard from Iowa veterans, and I'm happy to 
have him here today and I want to welcome him.
    Fort Wayne has a long history beginning with settlements by 
Native Americans in the area followed by a fort built by 
General Mad Anthony Wayne in the 1790s. Since then, Fort Wayne 
has played an important role in Indiana's history and is known 
for our manufacturing, education, insurance, health care, 
logistics, defense, security, and agriculture. Fort Wayne has 
been named an All-American City on three occasions, and most 
recently in 2009.
    We are here today to hear from Hoosiers about the 
employment difficulties facing far too many members of the 
Indiana National Guard, the Reserves, and those returning from 
active duty in Iraq and Afghanistan, and other parts of the 
world. While the unemployment rate for all Indiana veterans was 
6.9 percent, data from the Bureau of Labor Statistics show that 
the 35.6 percent of America's Gulf Era 2 veterans, ages 20 to 
24, are unemployed. While 8.8 percent of Gulf Era 2 veterans, 
ages 25 to 54, were unemployed.
    More shocking is anecdotal information that as much as 30 
percent of returning members of the guard and reserves do not 
come home to a job. Clearly, we need to find ways to reduce all 
of those numbers. The House Committee on Veteran Affairs has 
taken a first step towards that end last week by passing H.R. 
2433, a bill that would provide up to a year of GI Bill 
benefits to unemployed veterans between the ages of 35 and 60. 
The bill now goes the Senate. We hope to get the bill to the 
President for his signature by Veteran's Day along with several 
other improvements to veteran's benefits.
    I want to take a moment to explain that this particular 
meeting is a formal hearing. It is to be inserted into the 
official congressional record. Keeping with the standard 
protocol of official committee hearings, we will not be taking 
questions from the audience during the hearing today. Rather, 
we'll be taking testimony from our panelists that we have 
arranged for the hearing today.
    I'm also pleased to announce that afterwards, as many of 
you know and hopefully are aware of, that we will be having an 
open house at the conclusion of this meeting outside in the 
hallway. And looking forward to hearing from veterans, but that 
will be after this hearing today.
    At this time I'd like to yield to the gentleman from Iowa, 
Bruce Braley. We actually not only work together on this 
Subcommittee, on the Veterans' Affairs Committee, but our 
offices are actually next to each other on the 7th floor in 
Longworth, as well.
    Thank you, and welcome, Mr. Braley.
    [The prepared statement of Mr. Stutzman appears on p. 41.]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Thank you, Mr. Chairman. It's my pleasure to be 
here today in Fort Wayne, and it's great to see so many 
veterans out in the audience because we know these issues 
impact you, your friends, and your family. So we're delighted 
to have you here. I've told the chairman on more than one 
occasion that the thing that binds my home town of Waterloo, 
Iowa to Fort Wayne is that we were both original franchises in 
the National Basketball Association. And then they stole your 
franchise and moved it to Detroit. They stole ours and moved it 
to St. Louis and then to Atlanta. So that's the one thing that 
brings us all together is our unified opposition to people who 
come in and take great sports franchises out of places like 
Fort Wayne.
    Most of what I know about veteran's issues I learned from 
my father. My father enlisted in the Marine Corps when he was 
17. He was a farm kid in Iowa. He landed on Iwo Jima the day 
both of the flags were raised on Mount Suribachi. And when we 
had our hearing in Iowa I read from his discharge form which 
was a two-page form that really didn't have much information on 
it. It had what his interests were when he went back home, 
which was farming.
    It had an interest in exploring education when the GI Bill 
was brand new. But other than that, there really wasn't a lot 
of assistance he received at the Great Lakes Naval Training 
Center when they sent him packing and he got on a train and 
headed back to Iowa.
    The good news is we've come a long way in helping veterans 
try to transition from an active-duty deployment, whether 
they're active or in the Guard and Reserve, into the civilian 
workforce. But we've got a long way to go. The statistics the 
Chairman cited are totally unacceptable. When one out of every 
four returning veterans from Iraq and Afghanistan are out of 
work, that is a shameful legacy for this country, and that is 
the entire purpose of the Economic Opportunity Subcommittee 
that I'm fortunate to work on with Chairman Stutzman. And we 
aren't going to rest, and no American should rest, until every 
veteran who wants a job has a job.
    We heard very compelling testimony in Iowa on Monday, and I 
know we're going to hear compelling testimony today. But the 
thing that came through loud and clear from many veterans who 
have served their country with honor and distinction in harm's 
way, seen their friends injured and killed, is that it's one 
thing when you come home to have someone say thank you for your 
service, but the best way I know of to thank a veteran is hire 
a veteran. And what we want to do is come up with some creative 
solutions to help employers who are looking for great employees 
and veterans who are looking for work, bridge that gap so that 
we can find jobs for veterans who want them, and we can address 
the huge problems of unemployed veterans that concern us all.
    So I'm very delighted to be here. I'm anxious to hear the 
testimony of our witnesses, and I look forward to talking to 
you afterwards.
    Thank you.
    [The prepared statement of Mr. Braley appears on p. 41.]
    Mr. Stutzman. Thank you. And I would just say this: One of 
the joys that I have working on the Veterans' Affairs 
Committee, is the bipartisanship that is on the Committee. And 
you hear a lot of wrangling out of Washington, but I can tell 
you that both parties, Republican and Democrat, do see the 
need. And one of the things that I've appreciated about the 
President's Jobs Bill and other leadership in Washington is 
that we are now focusing more on hiring veterans as they do 
come home because this is a great need.
    We heard testimony from a gentleman in Iowa who was a 
captain in the military, a farm kid, had a family, small 
family. If you would see him walk through the door, you would 
say that young man should be able to find work fairly easy, and 
he is having a very difficult time finding work, and we hear 
stories like that. And Congressman Braley, the heart that he 
has and the passion that he has for helping veterans is evident 
as we have heard testimony from several folks from his district 
on the problems that they face, whether it's in housing, 
whether it's in finding employment.
    And so this is a great opportunity for us, and we're 
excited that we moved out of Washington and are doing these 
hearings back in our districts because we not only want to 
highlight the problem, we also want to find solutions and in 
connecting people and helping our veterans because we are going 
to have a great challenge in front of us as veterans come home 
from these wars. As they dwindle down, we want to make sure 
they come home to opportunities, and so that is what our task 
is on this committee.
    And so with that, we will start the hearing. And at this 
time I want to welcome our first panelists today. We are joined 
by Mayor Suzanne Handshoe of Kendallville; and Mr. Mark Dobson 
of the Warsaw-Kosciusko County Chamber of Commerce; Mr. Mike 
Landram of the Greater Fort Wayne Chamber of Commerce; Mr. 
Gregg Norris of BAE Systems, a company right here in Fort 
Wayne; Mr. Chris Straw of Team Quality Services, a company from 
Auburn; and Mr. Tony Tabler of ITT Systems, another defense 
contractor here in Fort Wayne that employs folks right here at 
home.
    Each of you will have five minutes to summarize your 
testimony, and your full written statements will be made part 
of the hearing record today. I want to say thank you to each 
you for taking time to come to this. We believe it's very 
important, and I believe you do as well. And we're anxious to 
work together.
    Our timer is here. We don't have a clock. But if you watch 
the lights, green means we go, yellow means slow it down, and 
red means stop. But we do want to hear your testimony, so feel 
comfortable. And I'm sure that not only us, but I'm sure the 
audience welcomes you, as well.
    Mayor Handshoe is a veteran, and her husband is actually in 
Guantanamo Bay and is going to be home in time for Christmas. 
So we're praying for his safe return. Start with you for your 
testimony. Thank you for being here.

 STATEMENT OF THE HON. SUZANNE HANDSHOE, MAYOR, KENDALLVILLE, 
    IN; MARK DOBSON, PRESIDENT WARSAW-KOSCIUSKO CHAMBER OF 
  COMMERCE, FORT WAYNE, IN; MIKE LANDRAM, PRESIDENT AND CEO, 
 GREATER FORT WAYNE CHAMBER OF COMMERCE, FORT WAYNE, IN; GREGG 
   NORRIS, HUMAN RESOURCES MANAGER, BAE SYSTEMS, ELECTRONIC 
  SYSTEMS SECTOR, FORT WAYNE, IN; CHRIS R. STRAW, CO-FOUNDER, 
 TEAM QUALITY SERVICE, AUBURN, IN; AND LTC ANTHONY D. TABLER, 
USA (RET.), SENIOR BUSINESS DEVELOPMENT MANAGER, COMMUNICATIONS 
  AND FORCE PROTECTION SYSTEMS, ITT ELECTRONIC SYSTEMS, FORT 
                           WAYNE, IN

             STATEMENT OF THE HON. SUZANNE HANDSHOE

    Ms. Handshoe. Congressman Stutzman, Congressman Braley, and 
gentlemen, thank you for the opportunity to be here today to 
discuss the very important issues of veterans. I would like to 
share some of my own experiences, both good and bad, and those 
of family members. First, I'm a retired Marine Corps Chief 
Warrant Officer 4. When I returned to Kendallville after Desert 
Storm, the economy was weak and jobs were not easy to find. I 
did find a job as a temporary at Kraft Foods while I worked on 
my degree.
    During the mid 1990s, while an active Marine Corps 
reservist and Desert Storm veteran, I applied for a position as 
a caseworker with the Department of Family and Children. During 
the interview process, I was asked if I had to attend any 
training that would require me to be absent. I explained that I 
would be gone for a minimum of 2 weeks of training a year and 
possibly additional longer to attend educational requirements 
of my rank. I was flatly told that it would be unfair for the 
other members of the staff to pick up the slack when I would be 
gone for the case loads. So it just wouldn't be fair to them. 
Needless to say, I did not get the job.
    The Northeast Indiana Special Education Cooperative hired 
me because I was a Marine. The executive director was a former 
Marine and felt that I could handle any of the challenges he 
threw my way. When I was activated in 2003 for Operation 
Enduring Freedom as a casualty assistance officer for Northeast 
Indiana and Western Ohio, they held my position and were 
extremely supportive, not only of me, but of my family.
    As mayor we've had a councilman deployed twice in the past 
few years to Afghanistan and Iraq. We supported him in any way 
that we could during his absence. We also had a firefighter 
activated for duty in Afghanistan and, obviously, his position 
was held and we welcomed him back to our ranks on his return.
    The City of Kendallville was recently awarded the employer 
support of the Guard and Reserve, the above and beyond award 
for the support that we show to our military members, and it 
was really an honor for us.
    A great story of patriotism is my brother-in-law. He is 
employed by Graphic Packaging in Kendallville. He joined the 
Army due to the events of September 11th. He served for 5 years 
and did three combat tours. When he was honorably discharged, 
Graphic Packaging not only gave him his job back, but they gave 
him all 5 years of seniority while he served.
    I've also learned, since we spoke last evening, that Kraft 
has also held some positions for people who were called to 
duty. One of the positions was a maintenance personnel who was 
actually a temporary and Kraft held that as a full-time 
position and gave it to him when he returned.
    Shouldn't we be recognizing or rewarding companies who 
follow these actions? I feel we should.
    Last year my husband, Randy Handshoe, interviewed for a 
teaching position at a middle school. The panel looked at his 
resume and commented that he was in the Navy Reserve. He 
answered, that is correct. One of the members asked him, does 
this mean that you could be deployed? He responded with, yes, 
every person that wears a uniform has this risk. The next 
comment was, well, where would that leave us? He was not hired.
    Shouldn't we be feeling good about putting on our resume 
that we are veterans, instead of feeling that maybe we should 
hide it so that we could get the job? Randy did receive orders 
several months later and was called to duty December 26th, 
2010, and he's still serving as a chief petty officer with the 
staff judge advocate's office in Guantanamo Bay, Cuba. What is 
troubling to me is that he will return at Christmas with no 
job, and he holds a Bachelor's Degree in education. I'm certain 
that I have other constituents that are having trouble finding 
work, or worse, not being offered work because they're 
reservists who have had multiple deployments or the threat 
exists that they would be called to duty.
    As the war continues, it is no longer fashionable to 
support military members. How sad. Perhaps, some consideration 
should be given to incentivize companies, through tax credits, 
who do hire veterans.
    I thank you, respectfully.
    [The prepared statement of Ms. Handshoe appears on p. 42.]
    Mr. Stutzman. Thank you.
    Mr. Dobson, you're recognized for five minutes.

                  STATEMENT OF MARK A. DOBSON

    Mr. Dobson. Good morning. Congressman Stutzman, Congressman 
Braley, thank you so much for holding this hearing here in Fort 
Wayne today and for the one in Iowa yesterday. That you're 
holding this hearing in Indiana and Iowa shows how much 
commitment the Congress sees for the veterans of America, and 
we greatly appreciate that. I'm humbled and honored to be here 
to speak on this very important issue; one that distresses us 
all when we hear testimony, such as the mayor's testimony, on 
the difficulty of re-employment when you return. Our country's 
brightest and our country's best have given of themselves so we 
may continue to enjoy the freedoms that we all have. They've 
stepped forward and they've heeded the call to duty. And for 
that, we are all grateful, so now we're compelled to do all we 
can to make sure that veterans return to America and take their 
rightful place in the private sector.
    The dichotomy here is that veterans expect no special 
treatment. They do not wish to have opportunity handed to them. 
They, more than anybody else in the room, understand what 
America stands for, and they will carve a significant path in 
our society. So I feel like it's our duty to make sure we break 
down any barriers that might exist out there so they can 
transition to the private sector.
    With these thoughts in mind, I contacted 30 businesses in 
Kosciusko County and the veterans officer at Grace College to 
understand what are some of the issues. And it seemed as though 
the consistent feedback came to three very significant things 
at this point. The first thing they all did was tell me how 
much they value and prize our military and express their 
sincere appreciation. But I knew we had to dig deeper and so we 
did, and three themes came out; economic constraints caused by 
the sagging economy, lack of business engagement with the 
military, and transitional training for veterans.
    The economic constraints are reflected by the state of our 
economy today. Companies facing the uncertainty out there are 
putting off hiring decisions. They're making hard decisions not 
to hire whether it be veterans or those who have not served. In 
a climate where unemployment is over 9 percent, job seekers are 
seeking greater competition when they're out there. And, 
arguably, the training received in the military would give you 
a competitive advantage, but that advantage is diminished when 
the pool of job seekers is so great.
    The private sector's engagement with the military is an 
additional challenge. Quite often businesses do not have 
knowledge of veteran's issues or the availability of veterans. 
They don't know who the contact points are, and they don't know 
when a veteran might be back and available for employment. When 
a deployment ends or a veteran retires, it's sometimes the 
first that we know of in the private sector.
    And, finally, another consistent comment was that, while 
the veteran's training is excellent, the transitional skills 
sometimes are challenging. Quite often assistance is needed 
with resume development, interviewing skills, and transitional 
job training. Obviously, some skills in the military are very 
easily transitionable to the private sector. If you've been a 
pilot, you probably can find private sector work.
    But if the job description in the military, and pardon the 
candor or pardon the hilarity, includes blowing up things, it's 
really hard for the private sector to understand how can I 
translate those skills into my workforce. So we believe there 
are some things that can be done to help and move this issue 
forward. The Post-9/11 GI Bill is a terrific program to help 
transition veterans to the private sector, but we think it 
could be more effective if chambers of commerce, economic 
development agencies, Work One agencies, and those engaged in 
the private sector are a part of the process.
    Today we're not traditionally contacted and don't often 
know when vets are training for a new job opportunity. Yet, we 
survey our workforce. We do job databases, and we are probably 
the best resource for characterizing what our community needs 
in terms of employment. If you have high level aeronautical 
skills, as an example, I can find you a position in Kosciusko 
County in the orthopaedic industry because the skills are quite 
often very similar.
    The second issue that we think we can do to help on this is 
have some advanced communications with entities such as ours. 
If we could begin to notify employers in our community that a 
deployment is ending in the near future, we believe we could 
become a resource for veterans in hiring. Perhaps positions can 
be held for those vets as they come back. We realize the 
challenge that the military doesn't want to exactly say when 
they're leaving a deployment or ending a deployment, but the 
sooner we can get advanced notice, the more we can be a 
resource.
    And finally, the U.S. Chamber has launched the Hiring of 
Our Heroes program. It's a hundred chambers and the U.S. 
Chamber working specifically on this issue. We have spoken this 
morning. Our chamber and the Fort Wayne chamber are going to be 
involved in a Hiring of Our Heroes event. That engagement, we 
think, can be of assistance and can help in this transition, 
and we're honored and humbled to be able to be a part of that.
    And I see I've gone over my time. Thank you for this 
opportunity.
    [The prepared statement of Mr. Dobson appears on p. 43.]
    Mr. Stutzman. Thank you.
    Mr. Landram, you're recognized for five minutes.

                STATEMENT OF MICHAEL S. LANDRAM

    Mr. Landram. Well, thank you, Mr. Chairman and Members of 
the Subcommittee. My name is Mike Landram, President and CEO of 
the Greater Fort Wayne Chamber of Commerce. We're the third 
largest chamber in the State of Indiana with over 1700 members. 
And those members collectively do about 18 billion dollars a 
year in annual revenues and serve over 750 different 
industries.
    The Greater Fort Wayne Chamber of Commerce is very involved 
in veteran affairs issues. In addition to having veteran-owned 
businesses as our members, we're heavily engaged in advancing 
the defense industry and cluster in Northeast Indiana. What my 
testimony will center around is sharing with you the many 
initiatives this collective group is doing currently as 
solutions and offerings to the topic of today's session. Like 
the rest of the country, we are acutely aware of the employment 
struggles veterans are faced with. We have a unique insight 
into the issues due to having a large National Guard base here 
in Fort Wayne. We're in regular communications with the base on 
the issues facing their guardsmen and are actively pursuing 
programs to fight unemployment among veterans. The Greater Fort 
Wayne Chamber of Commerce is a charter member of the Northeast 
Indiana Defense Industry Association board, or also known as 
NIDIA. NIDIA's membership is composed of businesses, higher Ed, 
congressional staffers, all working together toward the common 
goal, funding the defense industry and providing regional 
support and promotion of the industry and the contributions 
made to the defense industry in Fort Wayne and Northeast 
Indiana.
    Secondly, workforce development is a critical concern for 
the defense cluster. Many of the members of NIDIA have worked 
together to define their future staffing needs. Due to 
primarily an aging engineer workforce, engineers in many 
specialized areas will be retiring. Members of NIDIA work very 
closely in collaborative fashion to communicate their skill 
needs with the university partners as a way to ensure future 
graduates will meet the industry needs.
    Additionally, many small businesses in Northeast Indiana 
started and serve within the supply chain of the defense 
industry. For example, NIDIA conducted a member expo as a way 
for various small business members to describe their products 
and services to the defense industry. At monthly meetings 
presentations are done by businesses to the board that outline 
how businesses can work collaboratively with the defense 
industry in hiring and employing veterans.
    Lastly, Northeast Industry started the PTAC, Procurement 
Technical Assist Center, in 2009. PTAC serves as an advisor to 
businesses to inform them how to qualify themselves to do 
business with the government. In many ways this can be an 
option and an outlet for veterans starting their own business.
    In addition to our involvement with NIDIA, the chamber's 
assisting the National Guard base with implementing a STARBASE 
program in Fort Wayne. STARBASE is geared towards elementary 
students, primarily Fifth Graders, to expose them to STEM 
subject matter. These students are nationally--or traditionally 
at-risk students. The program encourages their learning in 
areas of academics that are historically underrepresented in 
STEM. Military volunteers from the National Guard, Navy, 
Marine, Air Force Reserve, and Air Force bases across the 
Nation work with students to set and achieve goals by helping 
apply these abstract principles in these disciplines to real-
world situations. STARBASE is a perfect example of the 
investment we can make in young people of our society in hopes 
that they'll take the experience and apply it to whatever field 
they choose to pursue.
    We know the issue of unemployment among veterans is an 
issue that will continue for the unforeseeable future given our 
current economic state. To that end our chamber, along with 
U.S. Chamber of Commerce, and, as Mr. Dobson had already 
alluded to, will be hosting a Hiring Our Hoosiers event in Fort 
Wayne. And we're going to consider even expanding it to 
Northeast Indiana sometime in the next year. The scheduling of 
this event has not been set precisely due to the uncertainty of 
deployment schedule in our area. These events will benefit not 
only veterans but are open to their spouses, as well.
    The issues veterans face concerning unemployment are 
substantial. As home to the National Guard base, we hear 
stories of soldiers being deployed only to return to jobs that 
have been down-sized or eliminated. At the same time in this 
double-dip recession, their spouses are having trouble 
maintaining employment. While these issues are not unique to 
veterans, they are exacerbated by the inability to determine 
their schedule.
    As part of our commitment to further advancing the military 
in Fort Wayne, I sit as the secretary of the newly formed Fort 
Wayne Base Community Council. Our purpose, as stated, is to 
continue to improve the outstanding relationship between the 
civilian community and the military service community centered 
around Fort Wayne, Indiana and to promote the general welfare, 
prosperity, and quality of life between the military and 
civilian population. By being involved in this council, our 
goal is to partner with businesses and military in order to 
create a mutually beneficial partnership.
    To conclude my testimony, we have been very active at the 
state level trying to support our state representative, Tom 
Dermody's bill to study these effects of the 3 percent pricing 
preference for veteran-owned businesses. We are continuing to 
push in that cause. We actually got one of our chamber members, 
Mr. Jerry Hogan, appointed through Senator David Long's office 
through the Military Affairs Commission to be able to explore 
the matter further. If the Greater Fort Wayne Chamber of 
Commerce can be of any assistance in this important fight, I 
encourage you to call us.
    Thank you, again, for the opportunity to testify.
    [The prepared statement of Mr. Landram appears on p. 45.]
    Mr. Stutzman. Thank you.
    Mr. Norris, you're recognized for five minutes.

                   STATEMENT OF GREGG NORRIS

    Mr. Norris. Chairman Stutzman, Ranking Member Braley and 
distinguished Members of the Subcommittee, as a representative 
of an employer of nearly 1,000 employees in Northeast Indiana, 
I appreciate the opportunity to discuss with you the 
experiences we have had recruiting and employing nearly 100 
veterans into our business. My name is Gregg Norris, and I am 
the human resources manager for the BAE Systems facility here 
in Fort Wayne. BAE Systems is a global defense and security 
company with approximately 100,000 employees world-wide. At our 
Fort Wayne facility, we manufacture a variety of both 
commercial and defense electronics for avionics applications. 
Our workforce is comprised of approximately 650 union 
represented hourly production workers with a balance of 300 
support personnel. Our company, including legacy owners, has 
been in Fort Wayne since 1985. We have been very fortunate to 
be able to grow the Fort Wayne business, from just over 700 
employees in 2004, to a planned population of nearly 1,000 by 
the end of this year. Veteran hiring has played a significant 
role in the success of this effort. Local hiring efforts that 
focus on veteran hiring include participation in the BAE 
Systems Corporate Warrior Integration Program of which I have 
provided additional information in my written testimony.
    Local hiring efforts also reach a large military audience 
by advertising all of the Fort Wayne openings through 
vetjobs.com. Career Builders talent network is also utilized 
which reaches 98 percent of transitioning military through 
their partnerships with the top military job boards, Department 
of Veterans Affairs, and the primary social media source, 
Facebook.
    BAE Systems participates in a variety of corporate hiring 
career fairs across the country, including last year's 
participation in Chicago where Fort Wayne employees attended. 
When we consider veterans during our recruiting process, we 
feel there are many positive skill sets that these individuals 
automatically offer to our company. Two of the talents that 
servicemen and women offer immediately, as a result of their 
military experience, are teamwork and a sense of self-
discipline. It is critical to our business that we have 
employees with the necessary skills to effectively work 
together. Like the military, for us to be successful, we must 
all work together towards a common goal or mission. The 
discipline that is instilled in soldiers, as part of their 
military background, is also a strongly desired employee 
attribute. We need people that show up for work, arrive on 
time, support our leadership, and have a strong sense of 
respect for themselves, their co-workers, and the company's 
values. All characteristics we typically find in our veterans.
    In terms of the recommendations that I would offer to the 
Committee based on feedback from our recruiting team, I would 
first and foremost encourage continued focus on education and 
opportunities for veterans to return to school. Many of the 
positions within BAE Systems require college degrees which can 
be an obstacle for veterans.
    Although the majority of our positions are hourly 
associates in Fort Wayne and require only a high school 
diploma, post-secondary educational experiences can still be of 
great value to a veteran candidate in differentiating 
themselves from a very large pool of potential candidates.
    As I considered other recommendations, I thought it might 
be beneficial if I spoke with a veteran that we recently hired. 
For purposes of this testimony I will refer to our veteran 
employee as Bruce. Bruce is an 11-year veteran who served in 
both Afghanistan and Iraq. He served in multiple capacities, 
including his final duty as lead security for his executive 
officer. Bruce saw extensive combat action while in theater and 
was eventually released from duty in 2007 due to severe 
injuries he had sustained. It gave me a profound sense of 
gratitude and honor to listen to Bruce describe the sacrifices 
he had made for our country.
    I asked Bruce how he had heard about our job openings and 
why he applied for one of our positions. He told me that he had 
maintained a close relationship with his former executive 
officer who had retired from the military and taken a position 
with BAE Systems in Fayetteville, Georgia. Bruce's former 
executive officer had recommended BAE Systems as a strong 
company with good values. Bruce also recalled several instances 
of BAE Systems equipment that he had used while on active duty. 
Bruce then did an Internet search on BAE Systems and found our 
production associate job posting online. He applied, met all 
the selection criteria and joined our team on August 29th, this 
year.
    I then asked Bruce what recommendations he might have for 
the Subcommittee. Bruce hesitated for a long moment and said, 
tell them I would describe how I felt when I left the service 
in one word, helplessness. Bruce went on to tell me that he 
vividly recalls receiving his military paperwork and being told 
he was free to leave, but he had no idea what to do next. He 
had been provided some resume building assistance, but he had 
no idea where or how to start finding a job, let alone a 
career.
    After listening to Bruce's story I would respectfully 
recommend some attention be given to what is provided in the 
way of out placement services for our veterans. Resume building 
is one small piece of this process. There is, however, so much 
more in the way of career counseling provided by out placement 
companies. These services would provide immeasurable benefit to 
our veterans. BAE Systems uses similar companies to provide 
this much needed service for our employees that are impacted by 
reductions in force. The employees that we are no longer able 
to employ are very appreciative of this service. I would expect 
that our veterans would feel the same sense of appreciation 
should they be offered this assistance as they rejoin civilian 
life.
    Chairman Stutzman and distinguished Members of the 
Subcommittee, we at BAE Systems are proud to be able to support 
our fighting men and women, both in combat, and in the 
workplace when they return to life at home. Thank you so much 
for the opportunity to speak with you today.
    [The prepared statement of Mr. Norris appears on p. 46.]
    Mr. Stutzman. Thank you.
    Mr. Straw, you're recognized for five minutes.

                  STATEMENT OF CHRIS R. STRAW

    Mr. Straw. Thank you. Good morning. My name is Chris Straw 
and I'm a business owner with Team Quality Services located in 
Auburn, Indiana. And I have unique perspective being on this 
panel because I am both an employer and I am also a veteran. 
And I've been on both sides of that table when you're trying to 
be interviewed and when you're interviewing. It does, it 
provides a unique perspective for me, and I see both sides. I 
flew for the Air Force Reserve out of Grissom from 1994 through 
2003, was deployed to Afghanistan after September 11th, started 
my company in 1997. And trying to run a company from halfway 
across the globe is quite challenging as you can imagine. And 
that actually is what forced me to get out of the military in 
2003. I had to make a choice of what I was going to do, and I 
was fortunate that I had a job to come back to because I knew 
the boss very well. It was me.
    And when I looked at this testimony today, I tried to break 
it down into three main areas that I felt were important based 
on my point of view. And one of them is the lack of familiarity 
with Northeast Indiana with the military. There's just not a 
lot of involvement for regular folks to interact with the 
military and get to know how the military works. Being in the 
Air Force Reserve, I got to travel all over the globe and 
throughout the United States. And in my written testimony I 
made an example of the State of Texas which has a lot of 
military bases there. The cities are very familiar with the 
military. You take San Antonio, countless military bases in 
that one city alone. The chances that somebody there probably 
knows a veteran, probably knows somebody that works at a base, 
or they work at a company that supports the base. They 
understand a little bit better than what I think Northeast 
Indiana does of how the military works and what those people 
are like.
    And with that, unfortunately, we're faced with getting an 
education of the military in Northeast Indiana through 
resources such as the news, Hollywood. And that's where our 
perspective comes from which as we know, and I know as a 
veteran, that's not the truth. And so unfortunately there's 
kind of a clouded view when it comes to perception of military 
veterans in Northeast Indiana.
    The second thing I would say is that it has to do with the 
skill set, and I refer to Mr. Dobson's testimony where he said 
the military does an excellent job of training their people for 
specific jobs and a lot of those excellent skill sets of 
teamwork and things Mr. Norris touched on do transfer over, but 
it is a very competitive environment right now, and there needs 
to be more than just that.
    Those are great things that the veteran brings along, but 
I'm also interviewing people with high unemployment, I'm 
getting people for jobs that are maybe an hourly type of a job, 
and I get people with Ph.D.'s coming in, and they've been 
unemployed for 9 months, a year, year and a half. So it really 
puts the military member almost at a disadvantage, especially 
if they don't have the education to match that.
    And I would say the third thing would be the interaction 
with the Guard. And being a Reserve guy myself, I completely 
understand how the Reserve system works, and I understand the 
commitments that are caused by that. However, again, based on 
the lack of education in Northeast Indiana and the businesses 
that are here, they don't.
    And what Ms. Handshoe was talking about where when people 
get interviewed, are you a member of the Guard Reserve? Yes. 
You know, as you're interviewing people, it's sad to say, 
you're looking for reasons to eliminate this person because 
I've got to narrow my field down to who can take this job. And 
that's a--I would consider our company a small business. And in 
a small business I don't have thousands of people in my office. 
I have ten. And so to hire somebody that may or may not be able 
to be there, I look at the size of my office and what that 
means if somebody, all of a sudden, get a notice that they're 
deployed. What does that mean to me? Well, that means I have to 
either replace that or absorb that in my other colleagues.
    Companies operate as lean as possible right now especially, 
and so it's very difficult to absorb it because you've built it 
so that you can't absorb it. And so what do you do? Do you 
bring in somebody to temporarily fill that assignment, hire 
them on as an employee only to let them go when the reservist 
comes back and then I'm faced with unemployment, for paying the 
guy that I hired in temporarily.
    So you can see the struggle and the uphill battle that the 
veteran faces when he's sitting in the interview.
    Unfortunately, you're almost considering whether I put that 
on a resume or not, and that's very sad, very sad.
    But I think, like I said, it has to do a lot with the 
education of, not only the veterans, but also the people in 
this community to embrace and understand what it means to be 
veteran and what a veteran can bring to them.
    Thank you.
    [The prepared statement of Mr. Straw appears on p. 48.]
    Mr. Stutzman. Thank you.
    Mr. Tabler, you're recognized for five minutes.

               STATEMENT OF LTC ANTHONY D. TABLER

    Colonel Tabler. Congressman Stutzman, Congressman Braley, I 
would like to thank you in advance for giving me an opportunity 
to share my views on ways to help veterans, the National Guard, 
reservists. My name is Tony Tabler. I work for ITT Electronic 
Services. I spent 22 years in the army retiring as a lieutenant 
colonel in 2001. And since retiring I've had regular contact 
with members of the active military and veterans. I've spoken 
to them at their military places of duty, in the community, and 
at the Fort Wayne Rescue Mission. I'm going to share my views 
on what I think can be done to help decrease the unemployment 
rate for veterans.
    Helping veterans to find employment starts when they 
transition from the military units and they return to civilian 
life. When I transitioned from the military at Fort Gordon, 
Georgia, I received guidance and coaching at the transition 
office on how to write a resume and how to best describe my 
skills and capabilities in a way that the civilian sector would 
understand. Transitioning for me was easy. I was a lieutenant 
colonel with an advanced degree, many contacts in defense 
companies. However, this is not the case for our younger 
veterans. The excitement of leaving the military quickly fades 
for some veterans when they arrive at their home town, and try 
to figure out what they want to do as civilians.
    I believe it is important for the veteran to be able to 
visit, for lack of better words, a civilian in processing 
center that provides an opportunity for them to take a job 
aptitude test to determine the work that would best be suited 
for them. Not sure where this would occur, but potentially it 
could be conducted at an existing Veteran Affairs facility.
    During the civilian in processing, the veteran should be 
given assistance in further developing their resume that allows 
them to match their skills against the job skills needed in the 
community. At the in-processing facility, they should also be 
coached on how to participate in a job interview. It would also 
be valuable if, at that in-processing facility in the 
community, they had a listing of military friendly businesses 
and job opportunities.
    With regard to military friendly businesses, I believe that 
offering some type of tax credit to companies who hire veterans 
would encourage them to be military friendly and make it 
appealing for them to hire veterans. Also, as was mentioned 
before, veterans should be encouraged to provide higher 
education. Many soldiers have little or no family support when 
it comes to pursuing higher education even though they have 
educational benefits.
    Once in the community, I believe it's also important to 
encourage veterans to periodically visit a veteran gathering 
place for professional development. This could potentially take 
place at a Veteran Affairs, National Guard facility or places 
of worship. But this would be a great opportunity for caring 
professionals in the community to periodically speak with and 
mentor veterans. I'm sure that professionals in the community 
would be willing to donate their time and offer free seminars 
that benefit veterans. Places of worship should also be 
encouraged to reach out to the military and their families. 
Opportunities for people arise when they have personal 
connections with other people who are interested in their 
success.
    I would now like to just share a few things about what ITT 
is doing to recognize and care for our veterans. ITT hires 
veterans in the course of our normal hiring activities. We e-
mail job openings to NAVNET for posting. We also post to 
recruitmilitarry.com and vetjobs.com. We periodically attend 
recruit military career fairs and place advertisements in the 
Search and Employ quarterly magazine sponsored by Recruit 
Military. The Web site nd.com scrapes our geospatial systems 
Web site daily, and they post job listings to numerous Web 
sites and provide opportunities for veterans.
    In addition, we post to Monster which has military.com and 
Linkedin which is a business related social networking site in 
an effort to target veterans. In Fort Wayne ITT is also a 
member of the Northeast Indiana Defense Industry Association 
which was discussed before. And this group also focuses on the 
employment of veterans and does so by sharing resumes between 
the various companies. Although I have made just a few brief 
comments I hope that I've sparked a few ideas that will result 
in ways to reduce the unemployment rate of veterans.
    And in summary, veterans need organized help with writing 
their resumes, finding jobs in military friendly businesses, 
and encouragement to get their college degrees. They need 
caring and mentoring professionals from the community to come 
alongside them to keep them focused on professional growth. 
Last, but not least, they need caring members of the community 
who are looking out for them.
    Thank you for this opportunity to testify.
    [The prepared statement of Colonel Tabler appears on p. 
49.]
    Mr. Stutzman. Thank you. At this time I typically limit 
members on the Committee five minutes, but since it's just the 
two of us and we're in charge, we're going to go ahead and 
extend our question and answer time, especially due to the size 
of the panel. And politicians typically do need a limit, but 
we're going to waive that today because I think there's some 
important information here.
    But I'd like to start with Mayor Handshoe. The Uniformed 
Services Employment and Re-employment Rights Act, known as 
USERRA, prohibits employers from refusing to hire or rehire 
someone because of their military status. Just like your 
husband's experience, would you feel that his rights were 
violated and was there any consideration of pursuing those 
rights under USERRA, which is a difficult position to be in?
    Ms. Handshoe. We did talk about that. I do feel they were 
violated because, as I indicated to him, you can't ask a person 
their marital status or if they have children. He felt that 
would black mark being in a small community, looking for 
another teaching position from other corporations in our 
community. And you know how small Kendallville is, and that's a 
strong possibility, so that's why we didn't pursue it.
    Mr. Stutzman. As you work with businesses in Kendallville 
in your community, and I know you as a veteran are a strong 
advocate for veterans in employment, do you find employers in 
Kendallville and the businesses that you communicate with, are 
they aware of the incentives that are currently available for 
hiring veterans and is there any emphasis from a lot of the 
businesses you talk with regarding hiring veterans.
    Ms. Handshoe. I think the larger corporations do, and I did 
mention two of them. And I think that is a culture within that 
corporation that does that. I think it would be helpful if we 
did do some sort of, as the other gentlemen spoke of, some sort 
of a hiring--if we could collaborate as a region, not just have 
Fort Wayne or Kosciusko, but if we did it as a region to talk 
about hiring veterans and heroes.
    Mr. Stutzman. Because that's one of the things I've found 
over these discussions. And me being a small business owner, 
before being a Member of Congress, I was not aware of those 
incentives available. It seems that the larger companies do 
have a program. I just visited UPS this morning, and they have 
a program. I visited the GM plant yesterday. They have a 
program and, actually, have a fantastic wall there in the main 
lobby recognizing their veterans. But I think for a lot of the 
smaller businesses--and I know the challenges they have--
they're trying to stay above water. They're trying to survive 
in a difficult economy. That's not something that's at the 
forefront.
    And I think, maybe, Mr. Landram, you might have some 
comments regarding that, as well, and how can we communicate 
that better to small business owners because small businesses 
make up a large portion of those who are hiring.
    Mr. Landram. Yes, that's very correct, Congressman. I know 
that 86 percent of our members employ 50 or less employees. And 
I know that Fort Wayne, Northeast Indiana, also mirror that's 
same statistic. So the large companies are going to have in-
house H.R. professionals like Mr. Norris next to me that are 
going to be very well aware of that. But the small business 
owner, you know, is trying to get the doors open on time every 
day and is trying to get the product out the door, and has a 
lot of balls in the air they're juggling. So ways to keep 
disseminating that and re-reminding people, whether it's 
outreach done from the various military support, you know, and 
other employment supportive type of services, you know, mini 
campaigns, if you will, will be helpful to keep that in front.
    Mr. Stutzman. Mr. Landram, you mentioned a bill that State 
Representative Tom Dermody has filed in the state legislature. 
Could you talk a little bit more about that and how that would 
work, more of the details about that.
    Mr. Landram. Yes, exactly. Well, in the last legislative 
session, House Bill 1183 would have essentially provided a 
price preference, you know, for a veteran owned business to be 
able to compete. You know, in Indiana you've got minority and 
women-owned businesses that have a higher price preference, and 
it does put a veteran-owned business, if you will, at a 
disadvantage. And I admit having many conversations. Mr. Hogan, 
as an example, explained that he just would opt not to bid on 
certain projects because he knew, in the end, you know, that he 
wouldn't be considered under that case.
    And he was quite voiceful about that situation, and we had 
campaigned in the last session hard to, at least, get the 
conversation started. The conditions weren't fertile to get the 
bill passed. But I think through our efforts and the efforts of 
others, a study summer session committee was formed. And we 
were able to get Mr. Hogan placed on that commission to explore 
that, and we're hopeful that we could get that advanced in the 
next legislative session in 2012.
    Which again, starting a business, you know, for a veteran 
becomes another viable option in as much as gaining good high 
quality employment.
    Mr. Stutzman. And maybe just to segue off of that, then 
I'll come back to Mr. Dobson, Mr. Straw, you are a small 
business owner and a tough boss, it sounds like. Why did you 
want to start a small business? And did any of the other men 
and women that you served with in the military talk about 
starting their own businesses? It's difficult because, 
obviously, right now the economy is not great--I talk to a lot 
of folks that say if I were trying to start a business today, I 
wouldn't mess with it. But, when you have an idea and you have 
a dream to do something, you set out to do it, and you set out 
to accomplish that. Can you talk a little bit about that and 
then also your experiences in hiring veterans and what you see 
and hear.
    Mr. Straw. Sure. First of all, as a small business, start-
up company, you're right, the thing you're focusing on is 
making sure the doors stay open, for one. And when I hear what 
Mr. Norris is saying about all the things that they have to 
hire veterans, I'm envious, but just don't have the time or the 
staff to dig that deep into it. When we have a position that's 
open, it's not like we have a big forecast of when it's going 
to be open. It's open until next Tuesday. Very quickly we need 
to get candidates in, get them interviewed and get them hired.
    And I would say as the reason for starting my business, my 
goal, since I was probably 7 years old, was to fly airplanes, 
so that was the ultimate dream, and went to college at Purdue 
to study that. But then you get out of Purdue with all my 
certificates to fly airplanes, of course nobody wants to ride 
on a airplane with a pilot that doesn't have experience. That 
was when I joined the military, was to do that, fly out of 
Grissom. What was unique about that is I'm flying alongside the 
guys, because we're a reserve base, these guys fly for United, 
Delta, everywhere else during the week. They come fly at 
Grissom on the weekends or one night a week. It gave me 
perspective into the airline life before I actually got into 
it. And I realized, as I was also starting a family, that might 
not be the life for me, and so then I started looking at other 
options. And once again, I have a very specialized skill that I 
need to take to market. You know, luckily it was flying 
airplanes, which was great, versus I loaded ordinance or 
something like that. But it's a tough market, tough market. 
Born and raised in Indiana, I wanted to stay here. Not a lot of 
airlines based out of Northeast Indiana. And so I looked at 
starting a business. Did that. We've been very successful, very 
fortunate, very lucky, but it hasn't been easy along the way.
    And when you're faced with I need the right candidate for 
the position, I need the right person. Unfortunately, being a 
veteran and a college degree, they're about the same. I really 
need somebody who can do the specific job, don't have a lot of 
time for training. We don't have some elaborate training 
program, so I need somebody that can come in and start running 
right away.
    And like I said, it's sad, but it's like that. But as a 
small business person, it's the truth.
    Mr. Stutzman. And to follow up on that, do you know how 
many veterans do you employ currently? And when you're doing 
interviews, you have the ability to identify with veterans. And 
as they are doing interviews, is there something that you 
consistently see and say, as you interview a veteran, this is 
going--if they were doing an interview--since they're doing an 
interview with me and I am a veteran, and I understand where 
they're coming from, if they were doing an interview with 
someone who wasn't a veteran, this is going to turn that 
particular person off? Is there something that you see, 
particularly?
    Mr. Straw. When I'm interviewing a veteran, I understand 
where they're coming from. I know what is out there. As far as 
how many veterans we have on staff right now, there's six, and 
that's current. In previous years we had a gentleman that was 
National Guard flew helicopters in Michigan at a guard unit out 
there and that was right around September 11th, and so the 
whole world changed as we know.
    And we had to deal with that. You can't just give up as a 
small business. This is my income, so we had to find ways to 
work with him and work around it.
    And I'm trying to remember your last question, I'm sorry.
    Mr. Stutzman. As far as, Mr. Norris mentioned resume 
building and we heard that out in Iowa as well. Do you see 
things that come in on resumes that you would say, you know 
what, if I were filling out your resume, I would give you this 
sort of advice? Do you see that typically on resumes, as a 
hiring employer, because, as they put their resumes together, 
is there something that we can do in that transition to help 
them put resumes together better.
    Mr. Straw. Yes. I think Colonel Tabler elaborated on that a 
little bit, when you right write a resume don't just say, I was 
part of this unit. That doesn't mean anything to most people, 
tell the skills that you learned, which might be the technical 
skill, but also elaborate on the teamwork and things that you 
do within your unit. Show me those transferable skills because 
that's the first thing that comes to my mind. Great that you're 
in this unit or did this. What's it going to do for me.
    I hate to sound me-centered but, when you're hiring 
somebody, that's what you're doing, you're trying to fill a 
position. I need a candidate that best matches that position, 
so having somebody help a veteran write a resume. And nowadays 
you can't just have a generic resume. They've got to be very 
tailored for what job you're looking for.
    Generic resume, for a small business guy, isn't going to do 
it.
    Mr. Stutzman. Mr. Dobson, you had mentioned that 30 
companies responded to your survey, and you mentioned that one 
of the major challenges is that businesses do not know where to 
find available veterans in your testimony. Your 9 members, are 
they aware of DVOPS, which is Disabled Veteran Outreach Program 
Specialist, and LVERS, Local Veteran Employment 
Representatives? Members of your chamber, are they aware of 
them, and do they have any interaction with those particular 
entities?
    Mr. Dobson. Great question. Thank you. The larger 
companies, Fortune 500's, such as Biomet, Zimmer, or DePuy, 
yes, they would know that. They have the H.R. staff, 
professional staff. The disconnect kind of follows along Mr. 
Landram's testimony; that is, about the same number, about 83 
percent of our members employ 50 or less. They don't have a 
specialized H.R. department. They aren't aware of that. That's 
where I believe, and thank you for asking the question, because 
that's where I believe a chamber of commerce can become a 
resource. If we can connect with those same folks, we can get 
that word out to our members. We serve our members by providing 
information to them, one of the things we do, by providing 
information. And if we could do that, I think we can strengthen 
or we can help in the process. There'll still be some 
challenges in communication, but we hope we can bridge that 
gap. I know all of us would want to be able to do that.
    Mr. Stutzman. Do you have any suggestions or ideas how the 
state employment services could communicate better through 
DVOPS, through LVERS, through their tools that they have, 
whether it's to chambers or to small businesses.
    Mr. Dobson. You know, small businesses are challenged. Mr. 
Straw has spoken to it well. I used to run one of those myself. 
Trying to keep the door open, trying to stay on top of things, 
and you use your trade association or your local chamber as 
your reference source. There are great trade associations 
throughout the State of Indiana that can help bridge that gap. 
Local chambers, the state chamber can help bridge the gap. I 
would, you know, suggest those folks be in contact with the 
various trade associations and various chambers and educate us 
on what they do and how we can help, and then let us start to 
communicate to our members because our members will respond to 
that type of information. They'll be very excited to get it.
    Mr. Stutzman. Colonel Tabler, you mentioned several things 
that made your transition from the military easy. Any 
suggestions on the transition assistance program, to improve 
it.
    Colonel Tabler. The transition assistance program actually 
they have with the military, I think it's on track, but, 
unfortunately, it's rushed. It's quick, and you'll just get 
kind of like an opportunity to work a resume at one time, but 
you really haven't thought through what you really want to do 
when you get out of the military. I think in the military 
transition itself, I think it was fine.
    I think the issue was when you get to the community. You 
just don't know what to do at that point. You know, soldiers 
are accustomed to showing up in formation, spending time with 
their non-commissioned officers, giving guidance, giving 
direction, somebody right there with them to mentor them. So I 
think it's when they get to their community, that's when 
they're just really lost. I know when I got to Fort Wayne I was 
fortunate because I went to work with ITT. I already knew a lot 
of those guys there because we had worked together on active 
duty.
    But the problem is when they show up at their home towns, 
they just don't know where to turn. They just don't know what 
to do. They don't know how to tailor those resumes to make sure 
that they're talking about the skills that are transferable 
into the civilian sector. I know, when I got to Fort Wayne, I 
really wasn't pointed to any type of veteran's office, per se. 
It was just the other veterans that I worked around that came 
alongside me.
    So I think in the military, it's fine, but that just gets 
you started. Once you hit the civilian community, you still 
need some type of mentoring and help.
    Mr. Stutzman. Thank you.
    Mr. Braley, I yield to you for questions.
    Mr. Braley. Let's follow up on that, Lieutenant Colonel 
Tabler, because after 9/11 one of the biggest problems that was 
identified was this problem of interoperability, the inability 
of various response agencies to communicate with each other.
    Colonel Tabler. Right.
    Mr. Braley. On our Subcommittee we hear over and over and 
over again one of the biggest obstacles for veterans 
transitioning to the civilian workforce is that they come out 
of a world of acronyms, which can be a huge asset to you if 
you're looking for work in the defense industry, which lives 
and dies with those acronyms.
    Colonel Tabler. Right.
    Mr. Braley. But if you're working for an employer who 
doesn't have that same culture, it can actually be an obstacle 
to you in getting employment. And I mentioned in Waterloo, what 
we need is a Rosetta Stone program for transitioning veterans 
to understand how to use those same job skills and language in 
a much different workplace, and I don't see that coming anytime 
soon.
    But you made a comment about how job aptitude coming out of 
the military is rarely assessed the same way it is going in. 
When I was in high school a hundred years ago, we took the 
armed services vocational aptitude battery test. It was 
mandatory for every high school boy. And it was designed to 
assess your aptitude for military occupations.
    But it seems to me we don't do anything. When you're coming 
off of active duty or returning from your guard and reserve 
unit, we don't do anything to assess what your aptitudes are 
for civilian employment. And it seems to me that may be an area 
where we can start to focus on helping veterans understand 
more. Many times they may have been deployed for extended 
periods, they've been working in the military for a long time 
and, all of a sudden, their career goals have changed 
dramatically from when they went in.
    So what's your suggestions on how we deal with that?
    Colonel Tabler. Well, what would I say is, first of all, 
there has to be a way of some office, some organization 
translating those military skills that they have and the 
language that the civilian sector understands. And I don't 
know, maybe it's one of the veteran's offices in the Fort Wayne 
community. But just somebody has to sit down and I guess really 
do that work to say, okay, you've got leadership skills. You've 
got certain technical skills.
    You've got skills that are great for training other 
individuals. You've got logistic skills. There's just a whole 
myriad of things that those soldiers do in the course of their 
everyday activities. It could be as simple as coming up with a 
matrix and then, as they see certain jobs that are open, you 
know, helping them to write resumes that are tailored to those 
jobs. But there's going to have to be somebody who comes 
alongside those soldiers when they get back to the community. 
That's probably one of the veterans affairs offices that should 
be their first stop, that hands them maybe a little cheater 
booklet or something that just really coaches and mentors them. 
Somebody's got to be there in the community, and they have to 
know that that individual is there, so they can go looking for 
them. I didn't know of anyone, per se. Now, if I would have 
Googled the Internet, I would found folks in the Fort Wayne 
area who could have potentially helped me. But like I said, for 
myself it was those vets that I worked with on active duty that 
I went to work with at ITT, so it made it real easy for me. 
Younger vets don't have any of those types of things available 
to them.
    So there has to be identified a location in cities or towns 
that those vets know, hey, when you get to such and such a 
town, go see this person, and then that person needs to be 
equipped with some materials, some ideas to just help and coach 
and mentor that young man or woman.
    Mr. Braley. Thank you. Mayor Handshoe, Semper Fi. One of 
the things that you testified about went directly back to what 
Mr. Straw said. Because I think a lot of us were shocked by the 
comment that your husband heard during that interview. Yet, 
that is the reality of small business owners in terms of how 
they're thinking about filling any job position. And it strikes 
me, we have an enormous educational challenge ahead of us 
because, as someone whose wife teaches, my mother's 82 years 
old, she's still substitute teaching in my home town, I have 
tremendous respect for the role that teachers play in educating 
the next generation of Americans.
    And education isn't just something that happens in a 
classroom. And if your husband had gotten that job and been 
deployed, the students he was teaching would have had an 
enormous opportunity to learn about sacrifice and thinking of 
someone other than yourself when you're called to a duty. So I 
feel badly that we missed that opportunity by him failing to 
get that job.
    Ms. Handshoe. Ironically, the high school had him speak for 
Veterans Day before he left, and all of the students that 
attended that have hit him on Facebook communicated with him 
since he's deployed on Facebook and how much they miss him, 
thank him for his speech so it's kind of ironic.
    Mr. Braley. And one of the other things you identified was 
economic incentives to employers to give them that extra 
incentive to hire veterans. One of the things that I've done is 
introduced a bill called Combat Veterans Back to Work Act which 
is modeled on an existing incentive that was in place in 2010 
that gave employers across the country incentive to hire 
unemployed workers, generally. By giving them a break on the 
employer's share of FICA, for hiring an unemployed veteran, and 
then giving them an additional tax incentive if they keep them 
on the payroll for a year, is that the type of program that you 
think might be beneficial to hire more unemployed veterans?
    Ms. Handshoe. I do. Because communities have a toolbox of 
incentives that they give to a new business starting, tax 
abatements, whatnot. But to be able to further that with 
employees, either be it through the state or Federal 
Government, would just be a plus.
    Mr. Braley. Right. Mr. Norris, at our hearing in Waterloo, 
we had three of Iowa's largest employers. One of whom I'm sure 
you've heard of, Rockwell Collins, which is in the same 
avionics industry as BAE. And we had John Deere and Principal 
Financial Group. And one of the things we know is that 
employers in the defense industry, like your company, have a 
level of sophistication about hiring veterans that some other 
businesses, particularly small businesses, don't. So what 
lessons can you share with us, based on BAE's experience, that 
could be helpful in mentoring other businesses who lack that 
sophistication.
    Mr. Norris. It's a great question. I don't have a lot of 
visibility into some of the corporate activities that go on in 
some of the areas you're talking about, but certainly, I am a 
beneficiary of some of the things like the Wounded Warrior 
Integration Program I talked about. I think we clearly 
recognize what these men and women bring to our business and I 
think it's--I can appreciate what Mr. Straw has said, the 
difficulty with the small business because with a thousand 
employees it's little bit easier for us to cover when someone's 
not there. I do appreciate that.
    But I think that it's very important. I want to kind of 
walk back to one thing I mentioned in my presentation about the 
out placement service. We talked about resume building. That's 
one very small piece. I've probably personally done about 500 
interviews in the last 5 years of people coming in. It's really 
more about the experiences and the interviews. Yes, the 
resume's important to get your name out there, but it's really 
more important, I think, with some of the out placement 
services, in terms of coaching for interviewing, helping people 
realize what they bring when they sit down in an interview, and 
helping them to express that to a team or the person they are 
talking to across the table.
    So I think that's one of the things that we have an 
advantage, that we can go to out placement companies to help 
with our own employees when we have to go through reductions in 
force. But I certainly see that as a possibility for veterans, 
as well, to have a service that's more around counseling, not 
just around resume building.
    The other thing I thought was interesting, when I talked to 
Bruce, the individual veteran that I just mentioned that we 
just hired. He networked through his executive officer. He 
found out about us through that executive officer. So, perhaps, 
there's more that we can do in terms of networking with current 
vets that are out there in the workplace. You know, having them 
work with those individuals coming in. I think Lieutenant 
Colonel Tabler had mentioned this. I think that's a great way 
to look at how can we do better with the network of current 
veterans that are in our businesses today, have them act as 
mentors and helpers and focusing these people in the right 
direction so they can get these great jobs. So we would 
certainly, as a business, love to see some help in that regard, 
as well, just connect those people with us.
    Mr. Braley. Let me transition that comment to you, Mr. 
Straw, because I used to be Chair of the Small Business 
Contracting and Technology Subcommittee and we worked a lot to 
try to expand awareness of contracting opportunities with the 
Federal Government because 90 percent of those contracts are 
issued to firms inside the beltway around Washington, D.C., and 
90 percent of them go to larger companies. And one of our 
biggest challenges is to try to help small businesses be more 
competitive through that process. A lot of assistance comes 
through groups like SCORE, Service Corps of Retired Executives.
    What I'm hearing here is we almost need a service corps of 
retired veterans who can help mentor other people, business 
owners, people wanting to start a small business, and share 
experiences of making this transition and doing it 
successfully.
    Mr. Straw. I agree. And I was also thinking, when Mr. 
Dobson was talking, how do you reach out to businesses, how do 
you educate them? Some of the benefits you mentioned I've never 
even heard of. So how do you do that? Do you go door to door? I 
think he's right, you go through the local chamber. Small 
businesses are typically active in their local chamber because 
they see it as a marketing tool.
    They're eager to get anything they can get from them. And 
if it's something like that that can help give me a competitive 
advantage of some kind, I'm all for it.
    Mr. Braley. Well, and I'm glad you mentioned that because 
there's so many small businesses that fail because of lack of 
understanding of the world that they're entering. And when you 
have tremendous resources like we have available online through 
all of these agencies and programs, to help you learn how to do 
a good business plan, how to do a financial plan, how to go 
find mentors who can look over your shoulder. It seems to me we 
need to do a better job of helping business owners identify 
resources to help them fulfill the mission that brings us all 
here today.
    Mr. Straw. Absolutely, absolutely. That's the key, getting 
the business owners, the people doing the hiring, educated 
about what things they can have at their disposal to make that 
process easier. And if it involves helping a veteran getting a 
job, I think everybody would agree that would be a winner on 
both sides.
    Mr. Braley. I want to direct this last question to you, Mr. 
Dobson, and to you, Mr. Landram, because you have similar 
experiences. We've talked about how most veterans, when they 
are separating, have these strengths going for them; they're 
highly motivated, they have critical thinking skills, they have 
experience with creative problem solving, and they have a 
strong work ethic, and they have experience in teamwork. Now, 
to most employers those sound like incredibly valuable assets.
    Why is it, in your opinions, that we have such a problem 
making this transition, with great potential employees, to 
veterans in the workplace.
    Mr. Dobson. That might be a loaded question. Do you want to 
jump on board.
    Mr. Landram. I'll jump on that one first. Well, I think the 
Lieutenant Colonel here intimated to it earlier. I mean, the 
business as a workplace is changing very rapidly as we all 
know. And, you know, if you just take a look at what does a 
career really consist of and provide for an individual, if you 
just take $40,000 a year, and you're going to work 30 years, 
and do the math, you know, you're putting a nose bed on 
yourself of $1.2 million, is what that means. And it goes back 
to the career preparation. You know, what you mentioned 
earlier, Congressman, those are all great skill sets. You know, 
people in general, you know, veterans included, have difficulty 
translating that to an employer, you know. And people need to 
be prepped and given those, quote, how-tos. How do I articulate 
that to an employer; how do I take these credentials on my 
resume, these experiences and translate them into a skill 
conversation that says here's where I am the value added? I 
mean, no one will argue what military does for self-discipline, 
initiative, teamwork, leadership, work ethic, integrity, 
honesty. Nobody will argue that with somebody who has served 
our country. The point is those are all high corporate values, 
business values. People just simply need help when they are re-
entering the workforce in being able to do that, not just on 
their resume, but how do they do that face-to-face with an 
employer? And I would advocate and support what you're on to. I 
think that's very good.
    Mr. Dobson. Thank you, Mike. Great comments, and I agree 
entirely with what he said. That's why I think I testified--or 
I know I testified that I think, arguably, a former military 
has a better base for work. These are all desirable qualities, 
so I think the disconnect then becomes matching the skills to 
the industries in the community. And the Work One office shared 
that one of the challenges is quite often, and rightfully so, a 
veteran wants to return to the home town community and, 
perhaps, the home town community job market does not match 
those skill sets. And so we need to counsel to help, perhaps, 
with some additional training to leverage those skills.
    If you were to return to Kosciusko County, Mr. Straw's 
experience in aviation would be similar to ours. We're not the 
aeronautical capital of the world, but we can certainly use 
some advanced machinists. There's a critical need for that in 
Kosciusko County. There's a critical need for advantaged 
agricultural folks. And if these folks who are counseling, as 
the Lieutenant Colonel talked about, these veteran affairs 
offices were engaging with folks that have this industry 
knowledge, we might be able to guide them a little bit better 
and help them use either the GI Bill that they opt to use once 
they're done or help them connect with a local Ivy Tech, so 
they can take those high quality skills learned in the military 
and convert them and use them in the industry.
    It wouldn't make a lot of sense to come back to Kosciusko 
County and think, I'm going to be become a pilot and I'm going 
to be able to fly for a major airline. But transportation and 
logistics are important to us, and there's probably some way 
that we can turn those skills around and use them in our 
community. And we want to be that source. We want to be able to 
help. So thank you for a very good question.
    Mr. Braley. I yield back, Mr. Chairman.
    Mr. Stutzman. Thank you. That concludes this panel. I think 
one thing I think we can recognize is that all of these 
witnesses have shown the importance of education and 
information to the veterans and also the importance of using 
the GI Bill's education and training benefits, and specifically 
there is some counseling offered in Chapter 36 of that.
    And, Mr. Norris, I appreciate your testimony. You touched 
on some great points and gave some ideas on communicating those 
needs that we have.
    So I want to say thank you to each and every one of you. At 
this time you're excused, and we will call up the second panel.
    Okay. The second panel is going to consist of Mr. Mark 
Everson of the Indiana Department of Workforce Development, Mr. 
Gary Tyler of the Veterans Employment and Training Service, and 
Lieutenant Colonel Marcus Thomas of the Indiana National Guard. 
Thank you to each of you gentlemen for being here today, and we 
will look forward to each of your testimony. And I believe 
we'll start with Mr. Everson. You'll all be recognized for 5 
minutes.
    Mr. Everson, you're recognized for 5 minutes.

STATEMENTS OF MARK W. EVERSON, COMMISSIONER, INDIANA DEPARTMENT 
OF WORKFORCE DEVELOPMENT, INDIANAPOLIS, IN; GARY TYLER, INDIANA 
STATE DIRECTOR, VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. 
 DEPARTMENT OF LABOR; AND LTC MARCUS THOMAS, INDIANA NATIONAL 
                             GUARD

                  STATEMENT OF MARK W. EVERSON

    Mr. Everson. Mr. Chairman, Ranking Member Braley, thank you 
for the opportunity to testify. The Department of Workforce 
Development manages all state unemployment insurance programs, 
as well as Federal workforce training programs in Indiana. As 
such we operate 90 one-stops, as they're commonly called, or 
here in Indiana Work One centers across the state. Service to 
veterans is an employment element of both these programs. 
Indiana's labor force is approximately 3.1 million, down from 
just over 3.2 million in the summer of 2007. The state's 
unemployment rate peaked in June 2009 at 10.9 percent. Since 
that time the unemployment rate has fallen to just below 9 
percent.
    In January 2010 over 271,000 Hoosiers collected 
unemployment insurance benefits from either the state or the 
Federal Government. Since that date, the number of Hoosiers 
collecting benefits has declined to approximately 115,000 at 
present. So things are better, but there is still a high level 
of unemployment which is, of course, a concern to us all.
    The 2010 American Communities Survey, or the ACS, conducted 
by the Census Bureau, estimates that Indiana is home to 
approximately 469,600 veterans or nearly 10 percent of the 
adult population. However, almost 200,000 Indiana veterans are 
over 65, and generally not in the workforce.
    Veterans age 18 to 65 total approximately 276,000. 
According to the ACS the 2010 unemployment rate among Indiana's 
veterans was 12.4 percent, compared with the total state 
unemployment rate of 10.7 percent during the same period. 
Additionally, ACS indicates the education level of Indiana's 
veterans tends to be higher than that of civilians with the 
exception of those that have obtained a Bachelor's Degree or 
higher.
    Indiana is committed to providing quality employment 
services to veterans at its Work One centers. Veterans receive 
priority service, and most of the centers have an on-site 
veteran specialist to assist with the employment needs. DWD 
currently receives funding to employ 62 veteran employment and 
training staff throughout Indiana. 34 of these positions are 
the LVERS, mentioned by the chairman already, and 28 of these 
are the DVOPS. All of the LVERS are required to be veterans. 
And the DVOPS must be veterans with a service-connected 
disability.
    For all training programs overseen and managed by DWD, 
eligible veterans are provided with priority service.
    Additionally, DWD ensures that veterans are provided with 
priority service in the job-matching program, meaning in our 
online web tool, veterans see the postings 24 hours before 
anybody else gets to see them.
    DWD believes that there are four primary challenges 
veterans encounter regarding employment opportunities. First, 
veterans have oftentimes been employed in industries among the 
hardest hit by the economic recession. According to a report 
issued by the U.S. Congress Joint Economic Committee in May of 
2011, Post-9/11 veterans are more likely than non-veterans to 
have been employed in manufacturing, construction, 
transportation, and other industries that experienced 
significant job losses during 2008 and 2009.
    We agree with this finding. Veterans continue to struggle 
with securing gainful employment, especially in the 
manufacturing sector, which in Indiana is down 18 percent from 
its peak employment in 2007. While veterans from the Guard or 
Reserve receive statutory protection to retain pre-deployment 
position on upon completion of their deployment, as has already 
been mentioned, if an employer's workforce has been downsized 
due to layoffs, the returning veteran may not always find a job 
opening upon return.
    The second challenge deals with the skills veterans 
developed while serving in the military and their ability to 
translate those skills into private sector employment. We have 
found that some of the skills veterans develop do not always 
directly correlate to certifications and credentials often 
required for private employment. For example, a veteran may 
have operated heavy equipment and vehicles during his or her 
service, but does not hold a commercial driver's license that 
is often a requirement for operating heavy transportation 
vehicles in private-sector employment.
    Additionally, DWD has found that many veterans experience 
difficulty expressing what specific skills they acquired 
throughout their service and how these skills transfer to the 
requirements of private sector job openings. Many veterans are 
modest about their service and particularly the skills and 
aptitudes they developed while serving. Although a veteran may 
have developed and utilized essential job skills, his or her 
inability to relate those skills to the requirements of a job 
opening, can lead a hiring manager to not fully appreciate the 
skills the veteran has to offer.
    Third while a veteran is deployed overseas, a number of 
facets in his or her home life may have changed. Some of these 
changes can include the birth of a child, the loss of a family 
member, or even the dissolution of a marriage. In addition, 
returning veterans may need to locate a place to live, 
establish bank accounts, locate transportation, and complete 
many other daily activities for which they may not have been 
responsible during their period of service. These factors often 
complicate the job search process which may be given less 
initial priority by the returning veteran.
    Finally, there are an increasing number of veterans 
returning home with some form of physical or mental disability. 
With advances in medical care, as you well know, fatalities 
have declined, but an increasing percentage of veterans return 
home with a physical disability potentially limiting future 
employment opportunities.
    In addition, there are incidences of mental health issues, 
including post-traumatic stress disorder among the veteran 
population returning from abroad. In our experience Indiana 
employers have displayed a great willingness to provide 
employment opportunities to veterans who have served the United 
States. However, some employers may be somewhat cautious in 
hiring veterans due to concerns about how PTSD or other mental 
health issues may affect performance in the workplace. Thank 
you.
    [The prepared statement of Mr. Everson appears on p. 51.]
    Mr. Stutzman. Thank you.
    Mr. Tyler, you're recognized for five minutes.

                    STATEMENT OF GARY TYLER

    Mr. Tyler. Good morning, Mr. Chairman, Ranking Member 
Braley. Thank you very much for this opportunity to testify 
before the Committee about the work we are doing at the 
Department of Labor to address the important issue of 
decreasing unemployment for veterans, National Guard, and 
reservists. We also appreciate the opportunity to discuss the 
work we are doing in Indiana. With nearly 500,000 veterans in 
the state it is critical that we provide them with services and 
support they need to find and obtain good jobs.
    Again, my name is a Gary Tyler. I'm the State Director for 
the U.S. Department of Labor Veterans' Employment and Training 
Service in Indianapolis. I am dedicated to helping our veterans 
and returning servicemembers achieve the goal. I am accompanied 
today in the audience by Heather Higgins, my regional 
administrator from the ten-state Chicago regional office. I 
would like to let you know that I am a Vietnam veteran having 
served with the famous fighting 4th Infantry Division of the 
United States Army.
    The 2010 unemployment rate among Indiana veterans in our 
data was 9.0 percent compared to the total state unemployment 
rate of 10.2 percent for the same time period. That differs a 
little bit from what the commissioner just stated. It depends, 
frankly, on the cohorts used in measuring at that point in 
time. I think the bottom line is that the unemployment rate of 
veterans is higher than the general population. And the 
unemployment rate of veterans between the ages of 18 to 24 is 
particularly high.
    VETS proudly serves veterans and transitioning 
servicemembers by providing resources and expertise to assist 
and prepare them for obtaining meaningful careers, maximize 
their employment opportunities, and protect their employment 
rights. We do this through a variety of nationwide programs 
that are an integral part of Secretary Solis's vision of good 
jobs for everyone.
    I would like to begin by briefly discussing some of the 
programs, along with other initiatives that assist America's 
veterans in getting to or back to work and then focus 
specifically on information that you requested in your 
invitation.
    Our principal program is the Jobs for Veterans State Grant 
Program. The Jobs for Veterans State Grant Program is the 
principal program that funds the DVOPS and LVERS that have been 
referenced today already. Last year the Jobs for Veterans 
Program provided services to nearly 589,000 veterans, and 201 
veterans found jobs. The program in our state is operated by 
the Indiana Department of Workforce Development.
    We also have in our department, Homeless Veterans 
Reintegration Program. Not every state has a Homeless Veterans 
Reintegration Program, but we do have one in Indiana, operated 
mainly in the Indianapolis, Marion County area to meet the 
needs of these homeless veterans and help integrate them into 
the workforce. VETS administers this program. In the program 
year 2009 over 14,000 homeless veterans participated in the 
program through 96 grants, and 8,470 were placed into 
employment. Data for program year 2010 is not yet available as 
figures for the fourth quarter are still being verified.
    Another program that we have is the Veteran Workforce 
Investment Program which is not operated in each state, but we 
do have one in the State of Indiana and operated through the 
Indiana Department of Workforce Development and provides 
veteran's services throughout the State of Indiana under this 
program. In fiscal year 2009 the Veterans Workforce Investment 
Program was focused to provide training and employment services 
in green energy occupations as envisioned in the Green Jobs Act 
of 2007. Nationwide there are currently 22 grants serving over 
4,000 veterans in fiscal year 2011. In Indiana training and 
placement services have been provided to approximately 3,000 
veterans statewide through the program since 2002.
    We also participate in transition assistant programs with 
active military bases, as well as with the guard and reserve 
members to the extent that we can at Camp Attebury in Southern 
Indiana. Our primary program for assisting individuals with 
their transitions from military to civilian workforce is the 
transition assistance program. VETS provides an employment 
workshop that is a comprehensive, two-and-a-half-day program 
during which participants are provided relevant skills and 
information such as job search techniques, career decision-
making processes, and current labor market conditions.
    As you know, VETS is currently in the process of 
redesigning and transforming the transition assistance program 
and employment workshop. We are creating experiential, 
effective, and enduring solutions for successful transition 
from military to civilian life and employment. A new TAP will 
be based on established best practices and career transition. 
Last year nearly 130,000 transitioning servicemembers and 
spouses attended the TAP employment workshop given at one of 
270 locations world-wide.
    Another endeavor that we've participated in and we're proud 
of is our connection with the employer community, employer 
partnerships. VETS is also implementing a new approach to 
employer outreach which involves pilot programs in partnerships 
with the private sector including, as mentioned earlier, the 
U.S. Chamber of Commerce and the Society for Human Resource 
Management. We do that here in Indiana through the state SHRM, 
Northeast SHRM, and through various chambers throughout the 
state. The U.S. Chamber is also scheduled to partner with us 
with the veterans workshop that we have with Operation Hire A 
Hoosier Vet Career Fair, our 6th annual career fair that's 
going to take place next April in Stout Field, Indiana.
    Recognizing that we have the red light on at this point, 
you have our written testimony and the data, and I appreciate 
this opportunity.
    Thank you, gentlemen.
    [The prepared statement of Mr. Tyler appears on p. 55.]
    Mr. Stutzman. Thank you.
    Lieutenant Colonel Thomas, thank you for being here.
    You're recognized for five minutes.

                 STATEMENT OF LTC MARCUS THOMAS

    Colonel Thomas. Good morning, Congressman Stutzman, Ranking 
Member of the panel, also veterans who are here in the 
audience, as well. I'm Lieutenant Colonel Marcus Thomas, the 
State Family Programs Director for the Indiana National Guard.
    I also have here with me the employment support for the 
Guard Reserve, Mr. Doug Gibbons.
    Well, in reference to the current economic conditions 
within the State of Indiana, several Indiana National Guard 
service soldiers and airmen have been impacted by higher under 
employment and unemployment. The Indiana National Guard 
partners with many organizations who stand ready to assist our 
servicemembers in finding and maintaining quality jobs in 
today's job market.
    Couple facts I'm going to share, according to a recent 
report from the Civilian Employment Index used by the National 
Guard Bureau, over 20 percent of our Army National Guard is 
unemployed across all states and territories.
    Indiana Civilian Employment Index shows 12.6 percent; 
however, we are 61 percent completed on the index with another 
39 percent of soldiers yet to be loaded. The Indiana National 
Guard Employment Coordination Program, of which we've stood up 
out of Hyde, conducts multiple face-to-face assessments with 
guard units, soldiers and commanders around the entire state 
and tracks the unemployment percentage to be closer to 20 
percent. Of note, this also includes the recent addition to our 
high school graduates who are also entering the job market for 
the very first time this year. We see some of the highest 
unemployment rates in areas that are hit hardest economically 
across the state. Places like Elkhart, South Bend, Gary and 
those kind of areas. The 219th Battlefield Surveillance 
Brigade, which is currently deployed to Iraq, have at least 25 
percent of their force projected to return to an unemployment 
situation. That's about 425 soldiers deployed. About 105 of 
those have been projected to come back to an unemployment 
situation.
    Four of the five largest Army National Guard states have 
the highest military unemployment rates or percentages in the 
Nation those states include Texas, California, Pennsylvania, 
Indiana, and North Carolina. The Indiana National Guard ranks 
third overall, and we're the fourth largest guard state with 
over 14,000 soldiers and airmen in our state. We stood up this 
employment coordination program and since for the past two and 
a half years, we have successfully placed over a thousand 
servicemembers and spouses in jobs across the state. This 
includes all branches of the military, not just the Army 
National Guard and the Air National Guard, all servicemembers 
within Indiana. We actively leverage the combination of 
education and part-time job employment. We, actually, also 
leveraged the power of encouraging servicemembers and their 
families, spouses to maximize the use of the Post-9/11 GI Bill, 
provide ongoing employment counseling and financial counseling, 
as well. We have 112 employer partners with almost 400 active 
jobs available that we're constantly pushing through our social 
media outlets and our web portals to get servicemembers and 
families access and make themselves available to apply for 
those positions. We have actually assisted in over 2,100 resume 
writing counseling sessions with our servicemembers across the 
entire state, matching those specific unique skills that were 
talked about in previous testimonies with the jobs that are 
actually out there with our partners. And we provide constant 
follow up with our community partners and employer partners to 
make sure those jobs that have been availed to our veterans are 
working out, to make sure that it's a best fit for both our 
servicemembers and the employers. We coordinate across the 
state with various types of community programs. The employer 
support of the guard reserve is a strong partner of ours, as 
well. Several vocational and vet centers across the state, 
various types of apprenticeship programs are partners as well. 
The Indiana Workforce Development office, we work very closely 
with, as well. We conducted this last year over 20 job fairs 
specifically for our military and their families, military 
expos. The annual operation of Hire a Hoosier Veteran with over 
a hundred employees that show up every year, 25 universities 
and various veteran service organizations come and support 
servicemen and their spouses and families who are interested in 
finding a job.
    And then finally, my boss, the Adjutant General R. Martin 
Umbarger, Adjutant General of the State of Indiana, has taken 
all these assets to establish this the Employment Coordination 
Program out of Hyde. There is no additional dollars received 
from the National Guard Bureau or other Federal funds to set up 
a program to directly work with each individual servicemember 
and their family with helping them to find a job. He 
consistently encourages all employers to consider a veteran for 
any open position especially the young men and woman who are 
returning from deployment overseas. And in a recent comment, 
business leaders across the state of Indiana know and praise 
the value of employees with military experience. These 
community leaders want to make sure that our men and women who 
serve this great state and nation are cared for by partnering 
up with the community to ensure that jobs are available for 
those to apply.
    Thank you very much.<greek-l>
    [The prepared statement of Colonel Thomas appears on p. 
??.] deg.
    Mr. Stutzman. Thank you very much to all of you for your 
testimony. I'll begin with a couple of questions.
    Mr. Everson, given the high level benefits that the current 
GI Bill has, why do we see many of the younger veterans coming 
back, needing employment assistance instead of attending 
school? The benefits that the GI Bill offers are, I believe, 
very good. Where is the disconnect there? Why do we not see 
more utilizing it and to their full extent, as well?
    Mr. Everson. I've not thought about that specific question, 
but I would try and back up to the whole population. And I 
wouldn't think it would be that different for veterans. 
Frankly, when people come into our offices, and obviously the 
veterans are an important but a small portion of those people, 
they are extremely interested in a job and a job now. Training 
and education by definition is it's extending out over a longer 
period of time. And oftentimes the individual, he or she really 
wants to get working right away. And what maybe they should do 
is just what you suggested, they really should be getting more 
training, but there's often a reluctance to do that, I would 
say, because you want to get back and you want to get working. 
And particularly these folks, they've been working as has 
already been indicated.
    Mr. Stutzman. And if I understand it correctly, do 
businesses have the ability to it, obviously, has to be a joint 
relationship between the serviceman to go to school and to 
work. But is there any tools within the GI Bill that give them 
the ability to go to school, and is there a benefit to an 
employer to employ them while they're going to school at the 
same time under the GI Bill.
    Mr. Everson. I don't specifically know the answer to that 
in terms of the GI Bill. The constraints, though, generally, 
look, we've got a big manufacturing base here. A lot of this is 
shift work. There are particular times that somebody comes on, 
and that's true in lots of businesses. So there's an inherent 
tension and conflict as was mentioned. I thought the first 
panel, by the way, was excellent in terms of the range of 
issues that were covered. Issues are different for big 
businesses versus small businesses.
    Small businesses you got ten employees. It's all hands on 
deck all the time. And if somebody's off getting training even 
afternoons or in the evening, it's tough to manage that. And 
frankly, just the overall economic difficulties are really what 
is making the most complex and the most daunting, I would 
suggest to you.
    Mr. Stutzman. And I think we see the same thing in the 
civilian world, as well, with adult education.
    Mr. Everson. Yes.
    Mr. Stutzman. Transitions that we're seeing within our 
economy, the global competition that we face. Things are moving 
constantly. But we do want to utilize and make sure that our 
men and women that are coming out of the military, I mean, 
utilize those benefits in the GI Bill as much as possible.
    Mr. Everson. We certainly point them in that direction if 
that's appropriate. But again, each case has got a complicated 
set of issues for the individual, the family. We talked about 
the disabilities. Approximately, we think, about one in seven 
of the veterans who come through to see us have a disability 
and one-third of those have a serious disability. So all of 
this sort of plays together. And if you want to lay training on 
top of it, that can be a logistical challenge for the 
individual.
    Mr. Stutzman. Could you talk a little bit about the work 
that's being done at Work One centers across the state. And, 
obviously, you are providing education and training. But as far 
as veterans coming into Work One facilities, can you kind of 
walk us through what you see and hear.
    Mr. Everson. Sure. I think that, again, we give the vets 
priority which means, even when they just come in, if there's a 
queue or in terms of, as I talked about, the job board that we 
have. The dedicated resources that were mentioned earlier, and 
then by Mr. Tyler, that's a great help because that's a 
dedicated resource. That means that the individual is not in 
competition, if you will, with other Work One personnel, so 
they get the direct care and feeding of that individual.
    The other thing that happens that I think makes this 
program a model frankly is those individuals are all vets 
themselves. They've got good contacts into the communities. 
They know the voluntary agencies that are working in this 
space, and they can make those referrals. They know the 
network. So I think this is a pretty--when I compare this to 
the average individual who has suffered a layoff, I think the 
vets, because of this dedicated resource and the direct ties 
that our folks have to the rest of the community and back into 
the guard or into the veterans administration, all of that 
works pretty well. The tough thing, though, as we said, is all 
these complex challenges that these individuals face and, 
again, the overall economy.
    Mr. Stutzman. Mr. Tyler, one of the primary 
responsibilities of DVOPS and LVERS is outreach into the 
employment community and into businesses. Can you give us an 
idea, there seems to be a disconnect between a lot of, 
specifically, smaller businesses. But we heard from the first 
panel, and we constantly hear this, that there seems to be a 
lack of information and what is available. Can you tell us a 
little bit about what are the DVOPS and LVERS doing to get that 
information out to businesses, chambers, other entities.
    Mr. Tyler. Yes, sir. And that question may also want to be 
addressed by Commissioner Everson in that the structure of the 
Indiana Department of Workforce system is such that the LVERS 
in the Work One employment service system work and are members 
of what are called business services or business solutions 
teams, so that they are integrated as part of the overall 
business services and employment outreach efforts on the part 
of the individual one stop workforce centers throughout the 
state.
    And there is a concerted effort on the part of these LVERS 
to go out and meet with the various chambers of commerce. They 
engage in seminars with the chambers of commerce. We oftentimes 
see human resource professionals who are representing their 
companies come to those venues. We are oftentimes invited to 
participate in those. And not only does it give us an 
opportunity, as the Veterans Employment Training Service, to 
bestow the virtues of a veteran, you know, the 10 reasons to 
hire a veteran, but also affords us the opportunity to talk 
about employer and company responsibilities and USERRA and re-
employment matters.
    Mr. Stutzman. Mr. Everson, would you like to comment?
    Mr. Everson. I guess one comment I was going to make sort 
of gets at all this. There is a distinct difference between 
large employers and small employers. 62 people, that's a fair 
number of folks doing this work. It's dedicated, it's 
effective, but it has its limits. You're not going to be 
reaching out to somebody who's got 30 employees unless you have 
a specific lead that says, geez, that fella's going to be great 
with veterans. There's just too much traffic going through 
there.
    So I thought Mr. Dobson's comments were very interesting in 
terms of working with the Chamber. We work very closely with 
the Chamber at the state level. I think that's an opportunity 
for more communication.
    The other point I would make here that I think underlies 
all of this were the comments by the mayor. And I think 
Secretary Gates has made much the same comment in terms of the 
disconnect between the Nation and the military at this stage of 
our country's evolution. Because of the reasons that the 
Lieutenant Colonel mentioned, we've got the fourth largest 
guard. We have a high penetration of veterans, I think the 
situation here, in terms of appreciation of the role of the 
military is probably rather more positive than in many parts of 
the country.
    Nevertheless, that's a real challenge now with the war 
fatigue and this disconnect between service by a few or some 
and not participation by others. So that's another piece in 
here that just makes this tougher in addition to all the 
traffic we have with these busy offices.
    Mr. Stutzman. What can you just tell us, in general, and 
some specifics, if you can think of them, about the 3,000 
unemployed Hoosier veterans, what they're dealing with, what 
they're looking for, some of the experiences they have.
    Mr. Everson. When I visited our offices, I think that they 
do not stand out in terms of their approaches or their 
problems. If somebody's unemployed, they're unemployed, and 
they're all looking for the same thing. What the vets have, I 
think, we sort of got to that at one point on the earlier 
panel, what they've got, what you mentioned, Congressman, 
they've got the great soft skills, was what we call them. As I 
travel around meeting with employers across the state, sure 
there's a technical skills gap that gets talked about again and 
again here. That plays here. That does play because, as I 
mentioned before, vets don't necessarily match up on the 
technical skills exactly. You've got to bridge that gap. But I 
think that we probably don't do enough to emphasize the soft 
skills, the leadership skills, the desire to get to work on 
time, to be a part of a team. They can take criticisms.
    If you talk to major employers and smaller employers, as I 
do, they'll tell you they have a lot of attrition. One of the 
great challenges of this economy right now is, despite the high 
rates of unemployment, we have many jobs that go unfilled 
because employers have a great deal of difficulty finding 
someone who has those life skills, those soft skills, that 
motivation to do work, and sometimes to do pretty tough work in 
some of the factories or other areas.
    And I think the vets braid out very well in all those 
areas. It's just a question of making the connections and then 
selling them, if you will.
    Mr. Stutzman. Lieutenant Colonel, final question: You 
mentioned you had 20 job fairs. What kind of success have you 
had with those? Could you elaborate a little bit more on those.
    Colonel Thomas. My understanding is we're averaging about a 
50 percent placement rate across the entire state. These are 
very tough decisions that families have to make because these 
jobs are all over the state. In some cases they require a 
decision to pick up and move to where the job is. So through 
counseling, through our on-staff joint family services support 
professionals that counsel with these families and our 
servicemen and women to make decisions, because sometimes it's 
not just getting a job, but it often includes maybe picking up 
and moving, as well. We're experiencing about a 50 percent 
placement rate across the entire state.
    I would say also, sir, that as we talk about veterans, I'm 
here representing the National Guard even though we work with 
all branches of the military in our state. Inside the veteran 
population, the National Guard servicemen and women and the Air 
National Guard, these are men and women who are from within the 
community, started in the community, may have deployed, come 
back to the community. All the skills deficit we talked about 
veterans not having, many of our guardsmen have all of these 
skills. They are teachers, and they are elected officials, and 
they are firemen, and they have vast amounts of skills. And so 
as I look at the veteran population, unemployment impact on our 
veteran population, it impacts the National Guard soldier as 
well, but the skill deficit, I wouldn't think that it's equally 
distributed across because these are men and women, both 
Reserve and reserve component, that started out in the 
community, deployed, and may come back to the community as 
professionals and as laborers, and what have you.
    Mr. Stutzman. Thank you.
    Mr. Braley.
    Mr. Braley. Lieutenant Colonel, let's follow up on that 
conversation. I come from a state that has no military bases, 
so most Iowan's contact with the sacrifices being made on our 
behalf comes through the Iowa National Guard. And we've talked 
a lot about the impact of combat deployments on the 
employability of the Guard and Reserve, but I want to get a 
little bit more specific.
    And I don't know if I just have bad luck, but this has been 
my fifth year in congress. When I was sworn in on January of 
2007, the Iowa National Guard was part of the longest combat 
deployment of any unit in Iraq. And in less than a month after 
I was sworn, we had one of the worst ice storms in our state's 
history that left 500,000 people without power and the Guard 
was there.
    Colonel Thomas. Yes, sir.
    Mr. Braley. During the 2008, demobilization from Iraq, 
welcome home ceremonies. We had the worst tornado in the United 
States in my district and a week later the worst flooding in 
our state's history, and the Guard was there.
    In 2010, we have more severe flooding, and we have the 
largest deployment of our Guard since World War II to 
Afghanistan.
    In 2011, we have all the demobilization and welcome home 
ceremonies at the same time the Missouri River is in the 
longest sustained flood in the history of this country, and the 
Guard was there. So we know the concept of weekend warriors is 
a myth in the way our current military engages the Guard and 
Reserve.
    How do those type of strains combined impact the ability of 
somebody to keep a job when they're being called away all the 
time or to get a job when they're employer is aware that all of 
those things have been happening.
    Colonel Thomas. I think that first recognizes or 
underscores the value of the National Guard in your state and 
in all states and territories. I would say that through 
partnerships, like with the employment support of the Guard 
Reserve, the ESGR program, we cannot sustain our National Guard 
employment percentages from climbing even higher without those 
types of solid partnerships. So if it wasn't for the great work 
that the ESGR Program does with helping employers understand 
that these are conditions outside of your employee's issue at 
this point--and so it's through solid partnerships, 
understanding, working, bridging strategies to ensure that the 
servicemen and women, the Guardsmen can go and do it's job or 
do his or her job and come back. It's through partnerships. 
It's through partnerships.
    And it's recognizing employers who are going the extra mile 
also. And so as a commander, what I tell my soldiers often is I 
need for you to help me recognize your employers for the great 
job and sacrifice that they're also making on behalf of this 
great state and our Nation. And so there are all kinds of 
awards that we have, and opportunities we have to recognize 
their sacrifice, as well. But it's a partnership effort.
    Mr. Braley. Well, and I'm glad you brought that up because 
I went down to Camp Shelby as part of the pre-deployment train 
up with the Iowa National Guard before they went to 
Afghanistan. And while I was there it was in the middle of a 
Boss Lift program that brought a lot of Iowa employers that 
were in ESGR down to observe their training to get a better 
sense of what they were doing and the risk that they would be 
taking while they were sent overseas.
    In your experience do programs like that help educate 
employers about the value and importance of hiring employees 
who are going to be called up and missing from work?
    Colonel Thomas. Absolutely, sir, absolutely. Without those 
kind of programs, our employers know--I think on the first 
panel there was discussion about employers not really knowing 
how to even engage the military community, the veteran 
community in this community. So when the guard reaches out to 
its employer population and brings them into training 
opportunities, Boss Lift opportunities, it's for the specific 
purpose to educate these employers about what these servicemen 
and women are going through. And without those kinds of 
programs, it's hard for them to understand and appreciate. And 
I think stronger relationships are built from those kinds of 
programs and creativity to better support our vets. And it 
allows certain types of organizations who decide to even 
support even on greater level, maybe even financially to help a 
servicemembers who's going through tough financial times to 
give back to that effort, as well. So just as employers are 
seeking to support their employee and the military, they're 
also seeking in some cases to go a little bit extra because 
they recognize the sacrifice, but we pull them in through those 
kind of programs. It's very, very beneficial.
    Mr. Braley. Mr. Everson, when my father came home from Iwo 
Jima there was no diagnostic category known as post-traumatic 
stress disorder. He died in 1980, and 11 years later I learned 
for the first time that he saw one of his best friends 
vaporized by a shell burst on Iwo Jima and suffered from what 
we now know as post-traumatic stress disorder. And I know that 
because he went through two severe bouts of depression when I 
was in high school and college. And I can tell you the people 
in my family know who came and struggled with us during that 
period, and we know who didn't.
    And you were good enough to raise the issue of PTSD as a 
factor in the employability of many combat veterans, and it's 
something we talk about a lot in Washington.
    Mr. Everson. Right.
    Mr. Braley. And I was at the hearing at Walter Reed when 
General Shoomaker said, very publicly for the first time, PTSD 
is real. And I thanked him because of my personal background.
    Mr. Everson. Right.
    Mr. Braley. But we still have a huge knowledge gap in this 
country. There is still a huge stigma associated with a 
diagnosis of PTSD.
    Mr. Everson. Right.
    Mr. Braley. And we have lot of veterans with what is called 
mild traumatic brain injury, which sounds like it ain't that 
bad, but can have profound impact on their ability to get and 
hold a job.
    Mr. Everson. Right.
    Mr. Braley. So what should we be doing to help educate 
potential employees who are veterans who may be suffering from 
PTSD and TBI, and what should we be doing to help educate their 
employers about the type of accommodations they may need and 
they deserve because of the sacrifice they've made for us.
    Mr. Everson. This is such a tough issue, and I'm not sure 
that I have any easy answers, but we see it in our centers. And 
if we have a vet who's coming in, he may choose to sit in the 
back of the room to be participating in a training class. We 
sensitize all of our people to signals or just making sure 
they're not overly arbitrary as sometimes bureaucrats can be 
and really work with the folks in a way that is sensitized, 
let's say, to this issue. I just think that this is something 
where the country is evolving and that we just--the reason I 
put it in there is just, as you said, because I think it needs 
discussion and prominence and education.
    That's about all I can say, sir.
    Mr. Braley. Well, thank you. One of the things you also 
mentioned in your testimony was the impact in Indiana since 
2007 manufacturing being down 18 percent.
    Mr. Everson. Yes.
    Mr. Braley. Well, according to the Bureau of Labor 
Statistics, in the last decade we have lost 54,000 
manufacturers nationwide, manufacturers not employees. So when 
I'm back in Waterloo, I'm privileged to have about half of John 
Deere's world-wide production in my district. And a lot of my 
veteran friends are people who worked in those factories coming 
out of Vietnam, coming back from World War II and Korea.
    Mr. Everson. Right.
    Mr. Braley. Those opportunities don't exist the same way 
that they used to, do they.
    Mr. Everson. No, they don't. This gets a little out of my 
lane, so I don't want to be brushed back by the Governor later 
if I've said something that's out of my channel. But 
nevertheless, in terms of economic policy, I think it's 
absolutely essential that the country and the Congress 
emphasize manufacturing because it creates jobs.
    Mr. Braley. I agree with you.
    Mr. Everson. I'm going to live in a home in Indianapolis. 
I've got a condo. I can rent that. I can own that. They're not 
moving where I live to China. But you can move a lot of those 
manufacturing facilities to China, so we should be doing 
everything we can to incent manufacturing and activities like 
that that are good strong jobs through things like the R and D 
credit. Recognition I would suggest to you, again, we talk here 
about the differentiation between big and small employers. 
Small employers have taken it particularly hard during this 
recession emphasizing things that are of value to small 
employers I think is of great importance as you both operate as 
members beyond the jurisdiction of the veterans community.
    Mr. Braley. Well, and the reason why that's important, I 
agree a hundred percent with you, that when we talk about our 
manufacturing policy in this country, we have to understand it 
has a huge impact on veterans because many veterans work in 
manufacturing facilities.
    Mr. Everson. Absolutely.
    Mr. Braley. And the other thing we forget is that there are 
a lot of parts suppliers, small manufacturers around Waterloo, 
Iowa that produce component parts for John Deere and also 
produce component parts for the automotive industry and 
Detroit, and those are small businesses, many of them, and so 
this all tends to come back together.
    Mr. Everson. Yes.
    Mr. Braley. But the reason we're here today is not to talk 
about a broader economic policy, but how these things combined 
together impact the employability of veterans.
    Mr. Everson. I agree with you a hundred percent; however, 
you've got to fix the whole to fix this part. The veterans are 
not going--you're just not going to construct something where 
the veterans are going to get jobs, and nobody else is going to 
get jobs.
    Mr. Braley. Absolutely. And I don't think veterans are 
asking for that.
    Mr. Everson. And I'm not suggesting they are.
    Mr. Braley. Mr. Tyler, I wanted to talk to you just briefly 
about your Homeless Vets Reintegration Program. That's another 
one of those things that we like to push off into the corner 
and not think about because it makes us feel uncomfortable but 
the reality is we have far too many homeless veterans in this 
country. And one of the factors can be if you don't have a job, 
it's hard to have a home. And a lot of times that's when 
families break down, is because of the lack of economic 
security. What's been your experience with that and how does 
that relate to what we're talking about here today.
    Mr. Tyler. Yes, homelessness is a national concern.
    Many of the homeless individuals also have been, you know, 
incarcerated. That's part of the problem, too. Finding 
employers that are willing and ready to commit time and 
resource to working, you know, with a homeless person or a 
person who is educationally or economically, you know, 
disadvantaged in that particular state is an issue.
    We've worked quite closely with the Indiana Housing and 
Community Development Authority on the state Homeless Planning 
Commission. We've worked with the Indy Connect Annual Fair 
which we bring together at the Indianapolis, Indiana Convention 
Center with various groups and offer multiple services for a 
homeless person. The concern for a homeless person, whether 
they're a veteran or not, is of a comprehensive nature. You 
know, they're dealing with probably a personal concern with 
alcoholism, perhaps drug abuse. Oftentimes, they have lost 
their driver's license. You know, they may have been suffering 
for years, Vietnam veterans, with post-traumatic stress 
disorder and not know it and have a problem getting to the VA, 
no transportation. You know, they're separated from their 
families. So it's important to avail multiple services, wrap-
around services for veterans or any individual in a homeless 
situation, and to do as much as we can to prevent homelessness, 
to catch and do what we can with, perhaps, financial 
management, with some kind of economic assistance. You know, 
when folks are borderline, they're not able to make their house 
payments, to be able to intervene, as soon as possible, in 
those kind of endeavors, also affording them with some type of 
legal assistance, okay, that can overcome a particular barrier 
that is posing as a challenge for them to really get a job.
    Mr. Braley. Thank you.
    I yield back.
    Mr. Stutzman. Thank you. As Mr. Everson and Mr. Braley 
started to talk economic policy I was about ready to loosen my 
tie and order pizza. We could be here probably the rest of the 
day.
    Mr. Everson. I'm sorry, I apologize.
    Mr. Stutzman. No, no, because it is all intertwined.
    Mr. Everson. It is.
    Mr. Stutzman. Specifically with veterans, the economy and 
policies that we have broadly across the country do affect this 
issue, very much so.
    Mr. Tyler, I did have one question and I want to go back to 
something that Mayor Handshoe said earlier, and she talked 
about her husband's situation and how he was denied employment.
    Mr. Tyler. Yes.
    Mr. Stutzman. Would you see that as a violation of USERRA.
    Mr. Tyler. Yes, yes. As it appears, yes.
    Mr. Stutzman. What are you doing under the forces.
    Mr. Tyler. What we're trying to do, we work quite closely--
of course, in Indiana we're fortunate to have a very close 
relationship with the Employer Support for the Guard and 
Reserve for the Indiana community. Servicemembers, particularly 
those returning to their jobs, who believe they may have a 
problem, you know, on the job or getting back to their position 
that they left prior to deployment, you know, we encourage them 
to touch base with the employment services for the guard and 
reserve, to contact that employer toward arriving at a 
resolution.
    There's always education that is needed, you know, at some 
level, at some level throughout, you know, the employer or the 
company.
    We try to avail ourselves to as many forums and 
opportunities of chambers of commerce to talk about their 
responsibilities under the law but to also, in so doing, let 
them know that, as a Federal official myself, as an 
investigator, a USERRA investigator, that we understand, 
different from when I was in Vietnam, served 365 days and came 
home, that today's servicemembers are deploying on multiple 
occasions, and that is rough on, particularly, the smaller 
industries. So in addition to, you know, trying to educate, 
trying to participate in various forums in which we can talk 
with the employers, we also want them to understand that, while 
we recognize, you know, that they support, you know, protection 
of our country, and that they will give time off, you know, to 
their employees to participate in drills and to go off overseas 
that, you know, we understand that it is a strain. They have 
those responsibilities, but we want to be able to talk and 
communicate. Oftentimes, as a regulator, it is difficult, you 
know, for us to get before the employer community.
    Mr. Stutzman. Thank you. And I want to thank you as a panel 
for being here today. I know you have a tough job, but we are 
counting on you and all that you do. We want to thank you 
though for your service, as well. This completes our hearing. I 
just want to say to Indiana's veterans that the House Committee 
on Veterans' Affairs Chairman, Jeff Miller from Florida, has 
challenged us and has a goal to reduce veteran employment to 5 
percent or less. I know it's a tall order, but it's a goal I 
think that is worthy and one that, hopefully, we can be 
successful at and that we'll see better economic times for all 
of us.
    I want to also mention too last week our colleague who 
serves on the Veterans' Affairs Committee, Tim Walz from 
Minnesota, had a bill that passed the House of Representatives 
that finally recognizes the contributions of our Guard and our 
Guard Reservist retirees as veterans. Who would have thought? I 
didn't even realize that until he brought that forward, but I 
think it's very well deserved and want to thank all our 
veterans in every branch of the military.
    And then, finally, I saw her here earlier, I don't know if 
she's still here, but Tina Acosta was here a little bit ago, 
and she is with Turnstone Center here in Fort Wayne. And she 
testified in front of our committee.
    Tina, there you are. Hi. Thanks for being here.
    But she testified in our committee regarding the U.S. 
Paralympic program and the work that they do at Turnstone, and 
she shared a story of a special person who's here with us 
today, I believe, Tim Leonard. And he is from Fort Wayne. And 
he returned home without the use of his legs. But he has been 
successful as an athlete and he has qualified for the Midwest 
Valor games, and he is Indiana's one representative, I believe. 
And so we are very proud to have him here with us today. Look 
forward to shaking your hand.
    Are you a shot putter?
    Mr. Leonard. Just one question. I already went to the 
Midwest games, I've already placed gold. It's the veterans 
games next summer that I've just also qualified for.
    Mr. Stutzman. Congratulations. Thank you. Are you a shot 
putter.
    Mr. Leonard. Shot putter and powerlifter.
    Mr. Stutzman. I was going to say, that arm looks big. 
Congratulations. We are very, very proud of you, and we wish 
you the very best of success.
    So with that, I want to thank Congressman Braley. I had a 
great tenderloin in Cedar Falls, Iowa. I saw King Gyros had a 
special on tenderloin, feel free to stop by there. Thank you 
for being here. And do you have any closing comments?
    Mr. Braley. Well, thank you, Mr. Chairman. It was an honor 
for me to be here in Indiana today, and I'm going to say 
something shocking. Chairman Stutzman and I are good friends. 
He's a Republican. I'm a Democrat. When I found out I was going 
to have the honor of working with him on this committee, the 
first thing I said to him is what can I do to help you be 
successful because, when it comes to serving our Nation's 
veterans, there is nothing that should be more non-partisan 
than helping our veterans in every way that we can, and that's 
why I am so proud to serve with him. I like Marlin. I think he 
likes me, and, you know, I think that you rarely see that on TV 
these days. And it happens a lot more than you think. And I 
think if we did more hearings like this and spent more time 
outside Washington talking to real people whose lives are 
impacted by the policies we set, we'd all be better off. And 
I'm just very honored to be here with you today. So thank you.
    Mr. Stutzman. I want to thank you, Mr. Braley, as well.
    And I do like him. And I think that he and I both have an 
understanding that the challenges that we face as Americans 
aren't Republican problems or Democrat. They're American 
problems, and we have to address them as Americans because the 
rest of the world wants to have what we have, and that is they 
also want to destroy our way of life. There are also those who 
do want to destroy our way of life. We need to protect America 
because we do live in the greatest nation.
    I just want to say I ask unanimous consent that members 
have five legislative days in which to revise and extend their 
remarks. Hearing no objection, ordered.
    Once again, thank you for coming. Thank you to each of you 
on the panel for your testimony. Thank you again to our 
veterans, and this concludes the Committee hearing.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Marlin Stutzman, Chairman,
                  Subcommittee on Economic Opportunity
    Good morning. Usually when we hold hearings, we are sitting in 
Washington. Today, I am delighted to be here in Fort Wayne. Northeast 
Indiana is home to 48,000 veterans. These men and women have served our 
Nation with honor, and it is my honor to serve as their voice in 
Congress on the House Veterans Affairs Committee. In Chairing the 
Subcommittee on Economic Opportunity, I have the opportunity on working 
on veterans employment and education issues alongside the Ranking 
Member of this Subcommittee, the Honorable Bruce Braley, who represents 
Iowa's First Congressional District. Earlier this week he hosted me in 
Waterloo, Iowa where we were able to hear from many Iowa veterans. I am 
happy to introduce him to you today and welcome him to Fort Wayne.
    Ft. Wayne has a long history beginning with settlements by Native 
Americans in the area followed by a fort built by General Mad Anthony 
Wayne in the 1790s. Since then, Ft. Wayne has played an important role 
in Indiana's history and is known for its manufacturing, education, 
insurance, health care, logistics, and defense and security. Ft. Wayne 
has been named an All American City on three occasions, most recently 
in 2009.
    We are here today to hear from Hoosiers about the employment 
difficulties facing far too many members of the Indiana National Guard, 
the Reserves, and those returning from active duty. While the 
unemployment rate for all Indiana veterans in September was 6.9 
percent, data from the Bureau of Labor Statistics show that 35.6 
percent of America's Gulf Era II veterans ages 20 to 24 were 
unemployed, while 8.8 percent of Gulf Era II veterans ages 25-54 were 
unemployed.
    More shocking is anecdotal information that as much as 30 percent 
of returning members of the Guard and Reserves do not come home to a 
job. Clearly, we need to find ways to reduce all of those numbers. The 
House Committee on Veterans' Affairs has taken a first step toward that 
end last week by passing H.R. 2433, a bill that would provide up to a 
year of GI Bill benefits to unemployed veterans between the ages of 35 
and 60. The bill now goes to the Senate and we hope to get the bill to 
the President by Veterans Day along with several other improvements to 
veterans benefits.
    I want to take a moment to explain that this meeting is a formal 
hearing to be inserted into the official Congressional record. In 
keeping with the standard protocol of official committee hearings, we 
will not be taking questions from the audience during the hearing. I am 
pleased so many of you are here today and I look forward to speaking to 
you, answering questions, and listening to your comments and concerns 
after the conclusion of this hearing in the main hallway.
    Again, I am delighted to be with you today and I will now yield to 
the gentleman whose office is next to mine, the distinguished Ranking 
Member of the Subcommittee, my good friend, the Honorable Bruce Braley.

                                 <F-dash>
      Prepared Statement of Hon. Bruce L. Braley, Ranking Member, 
                  Subcommittee on Economic Opportunity
    I would like to thank Chairman Stutzman for inviting us to the 
great state of Indiana. Great to be in the Midwest where the genuine 
people remind me of being back in my home state of Iowa. We are honored 
to be able to hear firsthand the concerns of hard working Americans and 
heroes who sacrifice so much for our country. We have a great list of 
people providing testimony and I look forward to hearing from your 
constituents and how we can help improve conditions for all our 
Nation's veterans.
    Today's field hearing will provide us the opportunity to review 
existing programs that help veterans secure employment; discuss 
recruiting and retention tools; and review barriers to employment.
    I hope our panelists will provide insight into the shortfalls of 
Federal and state programs while providing specific recommendations for 
us to consider to help improve veteran employment. I know that we have 
a poor economy but our veterans have acquired first rate skills that 
should be highly sought after by employers. We need to help our 
veterans translate their experiences and help employers understand the 
value of these skills. Hiring veterans is a win for the employer 
because they get a top notch employee with a strong sense of dedication 
and a win for the community because it decreases veteran unemployment.
    Let me be very clear, we have been and remain committed to getting 
our Nation's veterans back to work. This is not a VA issue, or a local 
issue, it is a national issue that demands our attention right now. 
This is why we have come together in a bi-partisan manner and pledge to 
work to address the employment needs of our Nation's veterans.
    I want to thank everyone for being here today and I look forward to 
hearing today's testimony.
    Mr. Chairman, Thank you for having us here in Indiana and I yield 
back.

                                 <F-dash>
Prepared Statement of Hon. W. Suzanne Handshoe, Mayor, Kendallville, IN
    Congressman Stutzman,
    Thank you for the opportunity to be here today to discuss the very 
important issue of Veterans employment.
    I would like to share some of my own experiences both good and bad 
and those of family members.
    First, I am a retired Marine Corps Chief Warrant Officer Four. When 
I returned to Kendallville after Desert Storm the economy was weak and 
jobs were not easy to find. I found a job as a temporary at Kraft foods 
while I worked on my degree.
    During the mid 1990's while an active Marine Corps Reservist and 
Desert Storm Veteran, I applied for a position as a case worker with 
the Department of Family and Children. During the interview process I 
was asked if I had to attend any training that would require me to be 
absent. I explained that I would be gone for a minimum of 2 weeks 
training usually in the summer months and occasionally maybe longer to 
attend educational requirements of my rank.
    I was flatly told that it would be unfair to the other members of 
the staff to pick up my case load for 2 weeks plus 2 weeks of vacation. 
It just wouldn't be fair.
    Needless to say I did not get the job.
    The North East Indiana Special Education Cooperative hired me 
because I was a Marine. The Executive Director was a former Marine and 
felt I could handle any challenge he threw my way. When I was activated 
in 2003 for Operation Enduring Freedom, as a Casualty Assistance 
Officer, they held my position and were extremely supportive of not 
only me but my family.
    As Mayor, we have had a Councilman deploy twice in the past few 
years to Afghanistan and Iraq. We supported him in any way we could 
during his absence. We also had a Firefighter activated for duty in 
Afghanistan. Obviously his position was held and welcomed him back to 
our ranks upon his return. The City of Kendallville was recently 
awarded the Employer Support of the Guard and Reserve ``Above and 
Beyond Award'' for our support shown to our military members.
    A great story of patriotism is my brother in law he is employed by 
Graphic Packaging in Kendallville. He joined the Army due to the events 
of September 11th and served for 5 years with 3 combat tours. When he 
was Honorably Discharged, Graphic Packaging not only gave him his job 
back, they gave him the 5 years seniority of his service time.
    Shouldn't we be recognizing or rewarding companies who follow these 
actions?
    Last year my husband, Randy Handshoe interviewed for a teaching 
position at a Middle School, the panel looked at his resume and 
commented that he was in the Navy Reserve. He answered ``that is 
correct''. One of the members then asked ``Does this mean you could be 
deployed?'' He responded with ``yes, every person that wears a uniform 
has this risk''. The next comment was, ``Where would that leave us''? 
Needless to say he was not hired.
    Randy did receive orders several months later and was called to 
duty December 26th 2010 and is still serving as a Chief Petty Officer 
with the Staff Judge Advocates office in Guantanamo Bay, Cuba.
    What is troubling to me is that he will return at Christmas with no 
job, and he holds a Bachelor's Degree in Education.
    I'm certain that I have other constituents that are having trouble 
finding work, or worse, not being offered work because they are 
reservists who have seen multiple deployments or the threat exists they 
will be called to duty.
    As the war continues it is no longer fashionable to support our 
military members. Perhaps some consideration should be given to 
incentivize companies through tax credits, who do hire Veterans.
    Respectfully.
                                 <F-dash>
   Prepared Statement of Mark A. Dobson, President, Warsaw-Kosciusko 
                 County Chamber of Commerce, Warsaw, IN
                           EXECUTIVE SUMMARY
    The attached document reflects the information obtained by the 
Warsaw-Kosciusko County Chamber of Commerce in relation to Veteran's 
Unemployment. Nearly 30 businesses and a local College contributed to 
the information obtained. The consistent messages heard from businesses 
regarding barriers to employing veterans were:

    <bullet>  ECONOMIC CONSTRAINTS CAUSED BY A SAGGING ECONOMY
    <bullet>  LACK OF BUSINESS ENGAGEMENT WITH MILITARY
    <bullet>  TRANSITIONAL TRAINING FOR VETERANS

    There are rolls and responsibilities for all of us in resolving 
this issue. Chambers of Commerce across the Country are an invaluable 
resource to help solve the challenge. A higher level of engagement by 
interested parties is needed to ensure that Veterans are seen as the 
very valuable employment resource they are. The testimony given today 
will outline a few steps we believe will help break down barriers for 
our Country's brightest and best.

                                 ______
                                 
    Good Morning. Congressman Stutzman & Honorable members in 
attendance today--thank you for holding this Congressional Sub-
Committee hearing in Ft. Wayne. That you hold this hearing shows our 
Veterans how much America values their service to our Country. I am 
humbled and honored to be here to speak on this most important issue.
    The issue of Veterans' Unemployment is one that distresses all of 
us. Our Country's brightest and best have given of themselves so that 
we may continue to enjoy the freedoms granted to us by our forefathers. 
They have stepped forward and heeded the call to duty. For that we are 
all grateful. And so now we are compelled to do all we can to ensure 
Veterans take their rightful place in the private sector.
    The dichotomy here is that Veterans desire no special treatment. 
They do not wish to have opportunity handed to them. They, more than 
any of us in the room, understand what America stands for. They will 
carve a significant path in society. It is our duty to help break down 
any barriers and help our Veterans transition to the private sector.
    With these thoughts in mind I contacted businesses in Kosciusko 
County to gain a deeper understanding of the barriers and challenges of 
hiring Veterans. Input was received from nearly 30 businesses. 
Additionally Grace College's Assistant Registrar/Veterans Services 
Officer provided invaluable information that helped form the basis of 
my testimony today.
    The consistent feedback received from our Business Community is the 
gratefulness for the Veterans military service. All expressed their 
appreciation for our Veterans. Additionally, comments indicated that 
many companies value the specialized training obtained in the military. 
They value the discipline and level of responsibility that a former 
serviceman displays on the job.
    So, we dug deeper to understand why there is an unemployment issue. 
I believe it breaks down into three main categories:

    <bullet>  ECONOMIC CONSTRAINTS CAUSED BY A SAGGING ECONOMY
    <bullet>  LACK OF BUSINESS ENGAGEMENT WITH MILITARY
    <bullet>  TRANSITIONAL TRAINING FOR VETERANS

    The Economic Constraints are reflected by the state of our economy 
today. Sustained unemployment continues to be near historical highs. 
Additionally, the uncertainty of the economy has companies putting off 
hiring decisions until there is a clear direction which way we are 
headed. In a climate where unemployment averages over 9 percent, job 
seekers see greater competition for any available opening. Arguably the 
training received in the military is a competitive advantage. But that 
advantage is diminished by the large number of people seeking the same 
job.
    The Private Sector's engagement with the military is an additional 
challenge. Businesses do not have Knowledge of the availability of 
Veterans. Or the contact points to know where to find available 
Veterans. They don't know when a Vet will be available for employment. 
When a deployment ends, or a Veteran retires, the private sector is 
unaware of their availability. Or the notice comes after significant 
hiring decisions have been completed.
    Finally, another consistent comment was that while Veterans' 
training is excellent, the transitional skills are not up to par. Quite 
often Veterans need assistance with resume Development, Interviewing 
Skills, & Transitional Job Training. Some military functions are easily 
relatable to their civilian counterparts. It is easy to understand what 
skills a Military Aircraft Mechanic might bring to the table. But some 
Military duties are hard to translate to the private sector. If the job 
description from the military has one ``blowing up stuff'', the private 
sector employer may not understand how they can use those same skills.
    So what can we do to help? The United States has transitional 
programs available to their Veterans--but we can all do more:

     I.  The Post-9/11 GI Bill is a wonderful program to help 
transition Veterans to the private sector. However, how much more 
effective would that program be if there was engagement with Community 
Development entities. Chambers of Commerce, Economic Development 
Agencies, WorkOne's and other entities charged with community 
development are the best resources for understanding the job market in 
a particular community. As an example, our Chamber maintains a jobs 
database, has a partnership arrangement for assisting with placement of 
trailing spouses, and routinely surveys the business community to 
understand what skills are needed in the workforce. So, if one were to 
characterize the needs in Kosciusko County, there is a strong need for 
advanced production workers, skilled machinists, advanced welding, and 
bio-engineers. We are the Orthopedic Capital of the World, home to the 
largest screen manufacturer in the world, and are one of Indiana's most 
productive agricultural regions. Think of what a useful resource we can 
be for those who council Veterans on what skills they should train for 
with their GI Bill for jobs in Kosciusko County. We recommend that 
those engaged in transitioning Veterans become involved with entities 
such as ours at a greater level.
     II.  Advance communications with entities such as the local 
Chambers when deployments are ending--or there are significant numbers 
of Veterans returning to our community. The sooner we can communicate 
with our local businesses, the better prepared the business community 
will be to assist with employment issues. I acknowledge this is a 
challenge. The military doesn't want to divulge when troops will be 
leaving a region. But businesses make large hiring decisions up to a 
year in advance. Better lead times mean a better chance that businesses 
will look to the pool of returning Vets as potential hires.
    III.  The U.S. Chamber has launched the Hiring Our Heroes 
initiative. This initiative is a commitment by the U.S. Chamber & Local 
Chambers throughout the Country to connect 100,000 veterans and their 
spouses to jobs through local Chambers in 100 communities throughout 
the Country. Our Chamber will be hosting such a job fair in early 2012. 
So, we should ask, how strong is the relationship between those who 
help Veterans transition to the private sector & the Chambers of 
Commerce throughout the United States? Are Chambers looked to as a 
resource for those involved with Veteran transition as a resource to 
help? Chambers exist because we serve our members. One of the most 
important things we do is engage on Workforce issues.

    I want to thank this committee for hearing testimony today. As I 
said before, I am honored to speak on this issue. Simple words of 
appreciation cannot express the gratitude I feel for those who chose to 
protect our freedoms. I was taught that actions speak louder than 
words. It is only through action can we all truly express our gratitude 
to those who have defended our freedoms.
    Respectfully submitted.

                                 <F-dash>
Prepared Statement of Michael S. Landram, President and Chief Executive 
    Officer, Greater Fort Wayne Chamber of Commerce, Fort Wayne, IN
    Thank you Mr. Chairman and Members of the Subcommittee. My name is 
Mike Landram. I am President and CEO of the Greater Fort Wayne Chamber 
of Commerce. We are the third largest Chamber in Indiana with over 1700 
members who do a total of $18 billion of business in over 750 
industries in Northeast Indiana.
    The Greater Fort Wayne Chamber of Commerce is very involved in 
veteran's affairs issues. In addition to having veteran-owned 
businesses as members, we are heavily engaged in advancing the defense 
industry in northeast Indiana.
    Like the rest of the country, we are acutely aware of the 
employment struggles veterans are faced with. We have a unique insight 
into that issue due to the large National Guard base in Fort Wayne. We 
are in regular communication with the base on issues facing their 
Guardsmen and are actively pursuing programs to fight unemployment 
among veterans.
    The Greater Fort Wayne Chamber of Commerce is a charter member of 
the Northeast Indiana Defense Industry Association Board (NIDIA). 
NIDIA's Membership is comprised of businesses, higher education, 
Congressional staffers, all working toward a common goal: funding the 
defense industry and providing regional support and promotion for the 
industry and the contributions made to the defense industry in Fort 
Wayne.
    Secondly workforce development is a critical concern for the 
defense cluster. Many of the members of NIDIA have worked together to 
define their future staffing needs. Due to the aging engineer 
workforce, engineers in many specialized areas will be retiring. 
Members of NIDIA worked very closely in a collaborative fashion to 
communicate these skill needs with their university partners as a way 
to ensure future graduates will meet industry needs.
    Additionally many small businesses in Northeast Indiana have 
started and serve within the supply chain for the defense industry. For 
example, the NIDIA group conducted a member expo as a way for the 
various small business members to describe their products and services 
to the defense members. At monthly NIDIA meetings presentations are 
done by businesses to the Board that outline how the businesses can 
work collaboratively with the defense industry in hiring and employing 
veterans.
    Lastly Northeast Indiana established PTAC (Procurement Technical 
Assistance Center) in 2009. The PTAC serves as an advisor to businesses 
informing them how to qualify themselves in doing business with 
government.
    In addition to our involvement with NIDIA, our Chamber is assisting 
the National Guard base with implementing a STARBASE program in Fort 
Wayne. STARBASE is geared towards elementary students, mainly fifth 
graders, to expose them to STEM. These students are traditionally at-
risk students. The program encourages their learning in areas of 
academics that are historically under-represented in STEM. Military 
volunteers from ``National Guard, Navy, Marine, Air Force Reserve and 
Air Force bases across the Nation work with students to set and achieve 
goals by applying abstract principles to real world situations''. \1\ 
STARBASE is a perfect example of the investment we can make in the 
young people of our society in the hopes that they will take this 
experience and apply it to whatever field they choose to pursue.
---------------------------------------------------------------------------
    \1\ DoD STARBASE. (2011). Program Description. Retrieved from: 
http://www.starbasedod.com/
index.php?option=com_content&view=category&layout=blog&id=66&Itemid=60.
---------------------------------------------------------------------------
    We know the issue of unemployment among veterans is an issue that 
will continue for the unforeseeable future, given our current economic 
state. To that end, our Chamber, along with the U.S. Chamber of 
Commerce, is planning on hosting a Hiring Our Hoosiers event in Fort 
Wayne in the next year. The scheduling of this event has not been set 
due to the uncertainty of the deployment schedule in our area. These 
events benefit not only veterans, but are open to their spouses as 
well. The issues Veterans face concerning employment are substantial. 
As home to a National Guard base, we hear stories of soldiers deployed, 
only to return to jobs that have been downsized or eliminated. At the 
same time, in this double dip recession, their spouses are having 
trouble maintaining employment. While these issues are not unique to 
veterans, they are exacerbated by their inability to determine their 
schedule.
    As part of our commitment to furthering the advancement of the 
military in Fort Wayne, I sit as Secretary of the newly formed Fort 
Wayne Base Community Council. Our purpose is as stated: to continue and 
improve the outstanding relationship between the civilian community and 
the military service community centered around Fort Wayne, Indiana; and 
to promote the general welfare, prosperity, and quality of life between 
military and civilian populations. By being involved with this Council, 
our goal is to partner businesses and military in order to create a 
mutually beneficial partnership among them.
    In closing, our focus is not confined to working in our community. 
We are also engaged at the State level in legislation that will benefit 
Veterans. During the 2011 General Assembly, our Chamber supported State 
Representative Tom Dermody's bill, House Bill 1183, to study the 
effects of a 3 percent price preference for veteran-owned businesses in 
Indiana. It was assigned to the Commission on Military and Veterans 
Affairs for study in the interim. We know that, while small, this is an 
important step forward for Veterans and a step in the right direction 
in addressing the unemployment issues among them. In addition to 
supporting this bill, our Chamber was instrumental in getting one of 
our Members, Jerry Hogan, a veteran and business owner in northeast 
Indiana, appointed to the Commission to ensure that Veterans were 
getting the most benefit from the price preference.
    If the Greater Fort Wayne Chamber of Commerce can be of any 
assistance in this important fight, I encourage you to call on us. 
Thank you again for your time and attention to this significant matter.

                                 <F-dash>
      Prepared Statement of Gregg Norris, Human Resources Manager,
         BAE Systems, Electronic Systems Sector, Fort Wayne, IN
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee. As a representative of an employer of nearly 1000 
employees in Northeast Indiana, I appreciate the opportunity to discuss 
with you the experiences we have had in recruiting and employing nearly 
100 veterans into our business.
About our Company
    My name is Gregg Norris and I am the Human Resources manager for 
the BAE Systems facility in Fort Wayne, Indiana. BAE Systems is a 
global defense and security company with approximately 100,000 
employees worldwide. The Company delivers a full range of products and 
services for air, land and naval forces, as well as advanced 
electronics, security, information technology solutions and support 
services. Our division serves the aerospace and defense community with 
capabilities and products that improve operational safety and enhance 
mission effectiveness.
    At our Fort Wayne facility, we manufacture a variety of both 
commercial and defense electronics for avionics applications. Our 
workforce is comprised of approximately 650 union represented hourly 
production workers with the balance of 300 support personnel in various 
disciplines including engineering, finance, operations, and supply 
chain management. Our Company (including legacy owners) has been in 
Fort Wayne since 1985.
    We have been very fortunate to be able to grow the Fort Wayne 
business from just over 700 employees in 2004 to a planned population 
of nearly 1000 by the end of 2011. In addition to this growth, there 
has been significant attrition as a result of many of our employees 
retiring. Consequently, we have hired nearly 500 employees over the 
past 5 years. Veteran hiring has played a significant role in the 
success of this effort.
Veteran Hiring
    Local hiring efforts that focus on veteran hiring include 
participation in the BAE Systems Corporate Warrior Integration Program 
which I will describe more fully later. We reach a large military 
audience through advertising all of the Fort Wayne openings on 
Vetjobs.com. Career Builder's Talent Network is also utilized which 
reaches 98 percent of transitioning military through their partnerships 
with the top military job boards, Department of Veteran Affairs, and 
the primary social media source--Facebook. BAE Systems participates in 
a variety of Corporate Gray hiring career fairs across the country 
including last year's participation in Chicago where Fort Wayne 
employees attended. As I mentioned earlier, currently about 10 percent 
of our employee population are veterans, including 12 new veterans 
hired this year.
    When we consider veterans during our recruiting process, we feel 
there are many positive skill sets that these individuals automatically 
offer our Company. Two of the talents that servicemen and women offer 
immediately as a result of their military experiences are teamwork and 
a sense of self-discipline. It is critical to our business that we have 
employees with the necessary skills to effectively work together. Like 
the military, for us to be successful, we must all work together toward 
a common goal or mission.
    The discipline that is instilled in soldiers as part of their 
military background is also a strongly desired employee attribute. We 
need people that show up for work, arrive on time, support our 
leadership, and have a strong sense of respect for themselves, their 
coworkers and the Company's values; all characteristics we typically 
find in our veterans.
The Wounded Warrior Program
    It is my pleasure to have with me today, James Rodriquez. James is 
the Director of BAE Systems' Warrior Integration Services. BAE System's 
Warrior Integration Program has been very successful and I would like 
to share some information about the program with you today.
    Although there are challenges facing veterans with disabilities as 
they return to the workforce, there are a variety of organizations and 
businesses within the country who are working diligently at assisting 
veterans to overcome these obstacles and BAE Systems is one of them. 
The employees of BAE Systems have resolved to positively impact these 
issues and to directly enhance the transition of our veterans and 
Wounded Warriors by establishing a Warrior Integration Program. The 
defining word in our Warrior Integration Program is INTEGRATION. We are 
integrating veterans, Wounded Warriors, and their families into a 
company that can serve as an extension of their military careers. The 
program provides employment positions with which they can identify and 
still maintain a connection with supporting their former soldiers, 
sailors, airmen, Coast Guardsmen and Marines. The value of service that 
these young men and women bring to our workforce is immeasurable. Due 
to their unique set of military skills, training, and leadership 
experience, they bring a new perspective to the way we do business and 
the products we build. It is a worthy and necessary investment to 
actively find ways to employ Wounded Warriors within BAE Systems and to 
dispel the perception that they are not employable. In order to do 
this, our business leaders from the corporate senior leadership team to 
the first line supervisors have chosen to take a leading role in the 
implementation, and sustainment of the program. From the beginning of 
our program initiative in 2008 to the current Warrior Integration 
Services we have today, we have known that our success in this great 
endeavor depends on two words--leadership and education. We have 
successfully established a supportive infrastructure within BAE Systems 
for our Warriors which adds to our talent pipeline, strengthens our 
customer connections, enhances our military charity partner 
relationships, and extends our view of diversity and inclusion. In 
essence, our employment position fundamentally provides mission-
centered work with which the veteran can identify, contribute, and be 
passionate. It also provides an opportunity for career progression and 
growth.
    We have the opportunity to make a positive impact on the lives of 
these young men and women by creating employment opportunities in an 
uncertain environment. BAE Systems is committed to assisting our 
Nation's heroes with a new uniform and the same commitment to which 
they are accustomed. The Warrior Integration Program has had a dramatic 
impact on the veterans' abilities to successfully transition to the 
workforce after their military service. It has also made a positive 
impact on the business and the stability of the veterans' families.
BAE Systems Military Leave Policies
    BAE Systems Military Leave policies exceed Federal legal 
requirements in supporting its employees who serve in the military. 
Employees who are actively serving in the military are eligible to 
receive a military pay differential that covers the difference between 
military pay and their regular BAE Systems salary. Reservists on duty 
for annual training may receive up to 2 weeks of differential pay, and 
employees called to active duty may receive up to 6 months of 
differential pay. Additionally, if applicable, we are able to implement 
a flexible work schedule to allow for mandatory medical appointments 
for veterans and Wounded Warriors. In these specific instances, 
alternate shifts serve to accommodate absences. Medical appointments 
can be attended during non-working hours and the veteran or Wounded 
Warrior can be assured his or her employment within the business 
remains intact while they serve our country at home or overseas.
Recommendations
    In terms of recommendations that I would offer to the Committee, 
based on feedback from our recruiting team, I would first and foremost 
encourage continued focus on education and opportunities for Veterans 
to return to school. Many of the positions within BAE Systems require 
college degrees which can be an obstacle for veterans. Although the 
majority of our positions are hourly associates in Fort Wayne and 
require only a high school diploma, post secondary educational 
experiences can still be of great value to a veteran candidate in 
differentiating themselves from a very large pool of potential 
candidates. Although the Fort Wayne site is a manufacturing location, 
most of our salaried support positions require technical degrees 
typically in electrical and mechanical engineering.
    As I considered other recommendations, I thought it might be 
beneficial if I spoke with a veteran that we recently hired. For 
purposes of this testimony I will refer to our veteran employee as 
Bruce. Bruce is an 11-year veteran who served in both Afghanistan and 
Iraq. He served in multiple capacities including his final duty as lead 
security for his executive officer. Bruce saw extensive combat action 
while in theater and was eventually released from duty in 2007 due to 
severe injuries he had sustained. It gave me a profound sense of 
gratitude and honor to listen to Bruce describe the sacrifices he had 
made for our country.
    I asked Bruce how he heard about our job openings and why he had 
applied for one of our positions. He told me that he had maintained a 
close relationship with his former executive officer who had retired 
from the military and taken a position with BAE Systems in 
Fayetteville, Georgia. Bruce's former executive officer had recommended 
BAE Systems as a strong company with good values. Bruce also recalled 
several instances of BAE Systems' equipment that he had used while on 
active duty. Bruce then did an internet search on BAE Systems and found 
our production associate job posting online. He applied, met all of the 
selection criteria and joined our team on August 29th this year.
    I then asked Bruce what recommendations he might have for the 
Subcommittee. Bruce hesitated a long moment and he said, ``Tell them I 
would describe how I felt when I left the service in one word--
helplessness.'' Bruce went on to tell me that he vividly recalls 
receiving his military paperwork and being told he was free to leave; 
but he had no idea what to do next. He had been provided some resume 
building assistance but he had no idea where or how to start finding a 
job, let alone a career.
    After listening to Bruce's story, I would respectfully recommend 
some attention be given to what is provided in the way of outplacement 
services for our veterans. Resume building is one small piece of this 
process. There is, however, so much more in the way of career 
counseling provided by outplacement companies. These services would 
provide immeasurable benefit to our veterans. BAE Systems uses similar 
companies to provide this much needed service for our employees that 
are impacted by reductions in force. The employees that we are no 
longer able to employ are very appreciative of this service. I would 
expect that our veterans would feel the same sense of appreciation 
should they be offered this assistance as they re-join civilian life.
    Chairman Stutzman and distinguished Members of the Subcommittee, we 
at BAE Systems are proud to be able to support our fighting men and 
women, both in combat and in the workplace when they return to life at 
home. Thank you so much for the opportunity to speak with you today.

                                 <F-dash>
Prepared Statement of Chris R. Straw, Team Quality Services, Auburn, IN
                                              Team Quality Services
                                                        Auburn, IN.
                                                   October 13, 2011

Marlin Stutzman
Chairman
Subcommittee on Economic Opportunity

Dear Congressman Stutzman:

    Regarding veteran employment issues in Northeast Indiana, I have a 
very unique perspective. Being born and raised in Northeast Indiana I 
am very aware of the perceptions and beliefs and the regional culture. 
I am also a veteran, so I have personal experience in being on that 
side of the employment line as a veteran. Lastly, now as a business 
owner and employer I frequently deal with employment issues from that 
side of the table.
    I feel that employment issues for veterans in Northeast Indiana 
fall into three basic categories; little interaction or presence of 
military units in the region, low or unrelated skills/lack of higher 
education and finally, uncertainty of availability of the 
servicemember.
    Little interaction or presence of military units in the region. 
Compare Northeast Indiana with a state like Texas. Texas has many 
military bases across the state. These are typically prominent 
employers and major players in the community. People may know someone 
who works at the base. They certainly know about the base, have maybe 
been on the base at an open house or possibly their jobs provide 
services that support the base, etc. By just the proximity of the base 
to the communities, the people are more educated and familiar with the 
military and the military personnel on the base. I would also argue 
that in many cases the perception of the military is higher among those 
people than people who don't have that interaction or proximity.
    Without that interaction, people in Northeast Indiana are left to 
make their own judgments based on the information they have either 
available or presented to them. Unfortunately, these perceptions, in 
many cases are through what they see in the news, what has been 
portrayed by Hollywood or their own past experiences. Reports have 
indicated that returning Veterans are encountering negative employer 
perceptions that Veterans are rigid, deficient in education and 
technological skills, and unstable due to PTSD. In an Associated Press 
(Yen, 2008) article describing this study, a Veterans group 
spokesperson observed that a ``Wacko Vet Myth'' is growing among 
employers -- an unintended negative consequence of years of attention 
being directed at the mental health issues of returning Veterans. 
Perception is reality until shown otherwise.
    Low skills/lack of higher education. Many returning Veterans, 
particular of college age, have very limited work experience outside 
the military. Many of those just out of high school have been delayed 
going to college because of deployments and many servicemembers who are 
members of the National Guard/Reserves have had to leave college mid-
year or mid semester because they have been called to active duty. This 
has put many young members of the armed forces at a distinct 
disadvantage to their civilian peers. Then, when they get out of the 
military, their highly focused skill doesn't match the qualifications 
required by employers in our region.
    Uncertainty of availability of the servicemember. Employers are 
very aware of the increase in deployment activity of our 
servicemembers. Guard and Reserve personnel are routinely deployed 
overseas to support the war on terror. The length of this current 
campaign has required even multiple deployments for some personnel. Add 
to that the knowledge that there doesn't seem to be an end anywhere on 
the horizon and employers are reluctant to invest the time and money 
into on-boarding a new employee who may or may not be at work because 
of a Guard/Reserve commitment. This is especially the case with high 
unemployment numbers, the abundance of qualified candidates in the 
marketplace and sluggish economy forcing employers to work as lean as 
possible. What's an employer to do while the servicemember is deployed? 
Is he supposed to hire a replacement, then lay them off and pay 
unemployment to them because you have to keep the servicemembers spot 
open for them? What would you do?
    Now, look at the cumulative picture of all of these points from the 
viewpoint of a Northeast Indiana employer with the perceptions and 
beliefs typical of this region. Unfortunately, the odds aren't in the 
favor of the vet. So how do you overcome these issues? Education, 
involvement, publicity and predictability are the things that I feel 
will help reverse the perceptions and trends in Northeast Indiana.

            Sincerely,

                                                     Chris R. Straw

                                 <F-dash>
        Prepared Statement of LTC Anthony D. Tabler, USA (Ret.),
     Senior Business Development Manager, Communications and Force 
       Protection Systems, ITT Electronic Systems, Fort Wayne, IN
    My name is Anthony D. Tabler (Tony), and I am currently serving as 
a Senior Business Development Manager in ITT's Communications and Force 
Protection Systems business area located in Fort Wayne, Indiana.
    I graduated from the United States Military Academy in July 1975. I 
spent 22 years in the U.S. Army attaining the rank of rank of 
Lieutenant Colonel and retired from the Army in 2001 after which I was 
hired by ITT in Fort Wayne.
    During my time at ITT I've had regular contact with members of the 
military to include active Army, National Guard and reservists. I have 
spoken with them at their military places of duty, in the community and 
at the Fort Wayne Rescue Mission. I understand the challenges they face 
as they transition from military to civilian life. I also understand 
the challenges they have in finding and keeping a job, and that the 
challenges of transitioning from the military is often greater for 
lower enlisted servicemembers than for senior military officers such as 
myself.
    I'm clearly not an expert on addressing unemployment issues for 
veterans, but I will share my views on what I think can be done to help 
decrease the unemployment rate for veterans, National Guard and 
reservists. I will also provide insights on what ITT does in Fort Wayne 
to help veterans find and maintain employment. For sake of simplicity I 
will only make reference to veterans through the remainder of this 
testimony.
    I think it is only fitting to first answer the question, why do we 
care about veterans? My answer would be that veterans and their family 
members sacrifice much as they serve our country in time of war and 
peace. Our veterans are willing to give their all to protect the 
interests of the Nation and allow you and I enjoy the freedoms we have 
in America. They may not fully understand or appreciate how important 
their job is, but veterans deserve our care, compassion and help.
    Helping veterans to find employment should start when they 
transition from their military units and return to civilian life. When 
I transitioned from the military at Fort Gordon, Georgia, I received 
guidance and coaching at the Fort Gordon transition office on how to 
write a resume, and how to best describe my skills and capabilities in 
a way that the civilian sector would understand. Transitioning for me 
was easy because I was a Lieutenant Colonel, member of the Army's 
acquisition corps, had a masters degree in electrical engineering and 
many contacts in the defense companies who offered to help me get a job 
in their respective companies. My rank, job skills and degree made it 
easy for me to transition but this is not the case for the younger 
veterans. Every veteran, however, possesses valuable skills that can 
add tremendous value to any community. Some possess detailed technical 
skills, while all possess leadership skills that will serve them well 
in every job profession that I can think of.
    The excitement of leaving the military quickly fades when the 
veteran arrives at his hometown and they try to figure out what they 
want to do as a civilian. I believe it is important for the veteran to 
be able to visit, for lack of better words, a civilian in-processing 
center that provides an opportunity for them take a job aptitude test 
to determine the type of work they would best be suited for. I'm not 
sure where this would occur but it potentially could be conducted at an 
existing Veterans Affairs facility. I would compare this to a student 
taking a college aptitude test to determine which career field is the 
best match for them. During this civilian in-processing, the veteran 
should be given assistance in developing a resume that allows them to 
match their skills against job opportunities in the community. I found 
that writing and rewriting my resume really forced me to think about 
what I wanted to do when I departed the military. The veterans should 
also be coached on how to dress and participate in a job interview. I 
would highly recommend that a case worker be assigned for those who 
want and need extra help. It would also be of tremendous value if the 
civilian in-processing facility had a current listing of military 
friendly businesses and job opportunities in the community.
    With regard to military friendly businesses, I believe that 
offering some type of tax credit to companies who hire veterans would 
encourage them to be military friendly and make it appealing for them 
to hire veterans.
    Once the veteran finds a job I believe it is important to offer 
them a military friendly place they can periodically visit that helps 
them get and stay connected to the community. This could potentially 
take place at Veterans Affairs or National Guard facilities, American 
Legion Posts, Veterans of Foreign Wars Posts or Disabled American 
Veterans Chapters or places of worship. This would give veterans a 
place to congregate to talk about what is happening in their lives. 
This would also be a great opportunity for caring professionals in the 
community to speak with and mentor veterans on topics of concern. I am 
sure that professionals in the community would be willing to donate 
their time, offer free seminars or lead discussion groups on topics 
that educate and benefit veterans if they knew there was a need.
    I would like to mention one other aspect of transitioning from the 
military. Places of worship should be encouraged to reach out to the 
military and their families. Many veterans, especially those returning 
from war, have serious emotional issues that they need to deal with. 
Their families suffer and often do not know where to turn for help. 
Places of worship should not try to deal with serious emotional and 
mental issues, but there is no substitute for a caring person coming 
along side another to deal with the struggles of life. Places of 
worship need to become better educated in the area of veteran issues 
and develop creative ways to reach out to veterans and their families.
    I would now like to share some ideas on things that ITT is doing to 
recognize and care for our veterans.
    ITT in Fort Wayne hires veterans in the course of our normal 
recruiting activities. Although we do not have a formally documented 
program that we follow to hire veterans, we do include veteran friendly 
organizations in our normal recruiting outreach. For example we target 
Navy veterans for our Fleet Systems Engineering Team (FSET) and Army 
veterans for our Field Services Representative (FSR) positions. We e-
mail FSET job openings to NAVNET for posting on their communications 
board. We also post to www.recruitmilitary.com and www.vetjobs.com. We 
also periodically attend Recruit Military career fairs and place 
advertisements in the Search and Employ Quarterly Magazine sponsored by 
Recruit Military.
    Our employment records indicate that 83 ITT employees have self-
identified themselves as U.S. veterans in Fort Wayne. This count is 
likely low because some employees elect not to identify veteran status 
when they are hired.
    The Web site www.Indeed.com scrapes our Geospatial Systems Web site 
daily and posts job listings to numerous Web sites that provide focus 
for veterans seeking jobs. In addition, we post to Monster (Monster has 
military.com) and LinkedIn (www.linkedin.com) which is a business-
related social networking site in an effort to target veterans.
    In Fort Wayne ITT is also a member of the Northeast Indiana Defense 
Industry Association (NIDIA) whose two fold mission is to support and 
grow the defense industry in NE Indiana (serving as a model statewide 
now) and to grow talent for the defense industry. This group also 
focuses on the employment of veterans. It is not uncommon for members 
of this group to share resumes of veterans between member companies.
    ITT also is a member of the Employer Support of the Guard and 
Reserve (ESGR). The mission of the ESGR is to ``develop and promote 
employer support for Guard and Reserve service by advocating relevant 
initiatives, recognizing outstanding support, increasing awareness of 
applicable laws, and resolving conflict between employers and 
servicemembers.'' ITT has received the ESGR Patriot Award in 
recognition of being an outstanding employer who supports members of 
the National Guard and Reserves.
    ITT also participates in the newly founded Fort Wayne Base 
Community Council which supports the Guard and Reserve in Northeast 
Indiana. The Fort Wayne community has recognized this as important and 
has reached out to the Selfridge Air National Guard Base who has an 
established program in Michigan to help coach the establishment of our 
group.
    Although I have made just a few brief comments, I hope that I have 
sparked a few ideas that will result in ways that could help reduce the 
unemployment rate of veterans, National Guard and reservists.
    I appreciate the opportunity to testify before this Subcommittee 
and would be glad to be of service in the future. I'd be glad to take 
any questions at this time.

                                 <F-dash>
          Prepared Statement of Mark W. Everson, Commissioner,
     Indiana Department of Workforce Development, Indianapolis, IN
Introduction
    Mr. Chairman and Ranking Member Braley, I appreciate the 
opportunity to appear before you to discuss veteran employment issues 
in the state of Indiana. Providing employment and training services to 
veterans is among the highest priorities of the Department of Workforce 
Development in Indiana, where the U.S. Census Bureau has estimated that 
just below 10 percent of the adult population are veterans, with over 
half of those between the ages of 18 and 65. My testimony will provide 
a brief overview of Indiana's economy and employment outlook, and a 
summary of Indiana's workforce investment system and programs. I will 
also provide data regarding the characteristics of Indiana's veterans 
and share a summary of the employment and training programs made 
available to veterans around the state, and specifically in northeast 
Indiana.
Indiana Economic Profile
    Indiana's labor force is approximately 3.1 million, down from just 
over 3.2 million in the summer of 2007. The state's unemployment rate 
peaked in June 2009 at 10.9 percent. Since that time, the unemployment 
rate has fallen to just below 9.0 percent.
    In January 2010, over 271,000 Hoosiers collected unemployment 
insurance benefits from either state or Federal programs. Since that 
date, the number of Hoosiers collecting benefits has declined to 
approximately 115,000 at present.
    Private sector employment in Indiana is estimated at 2.4 million 
jobs. Significant sectors include manufacturing (19.0 percent of 
private employment), along with private education and health services 
(18.3 percent), trade (17.4 percent), and professional and business 
services (11.7 percent). The importance of manufacturing to the state's 
economy is hard to overstate because of historically high wages in the 
sector. The government sector employs over 400,000 Hoosiers.
    Employment projections for the state indicate that employment 
opportunities in the future will be found in health care, 
transportation, and professional, scientific and technical areas. 
Indiana will need to continue to develop a skilled workforce to meet 
the demands of employers.
Northeast Indiana Economic Profile
    DWD defines northeast Indiana (Economic Growth Region 3) as the 
geographic area including the following counties: Adams, Allen, DeKalb, 
Grant, Huntington, LaGrange, Noble, Steuben, Wabash, Wells, and 
Whitley. It is home to nearly 364,000 workers. The primary employment 
sectors within northeast Indiana are manufacturing (including the 
defense industry), private education and health services, professional 
and business services, trade, and agriculture.
    Northeast Indiana's economy has been historically characterized by 
a relatively large number of high-paying manufacturing jobs. As has 
been seen in many parts of the United States, northeast Indiana was 
significantly impacted by the loss of a number of these jobs. However, 
over the last year, northeast Indiana has seen an uptick in its overall 
employment outlook. The unemployment rate for the region has decreased 
by nearly 2 percentage points to 8.9 percent, and employers have slowly 
begun to increase employment numbers. Current employment projections 
for the area indicate that both short and long term employment 
opportunities will be found in a range of manufacturing-related 
occupations (due primarily to retirements) and in health care. The area 
also has potential growth in sectors such as business and financial 
services, transportation and material moving, and construction 
occupations. DWD and its WorkOne centers recognize the need to develop 
a skilled workforce in northeast Indiana that can meet the demands of 
these growing sectors.
Indiana Veterans
    The American Community Survey (ACS) is an ongoing statistical 
survey conducted by the U.S. Census Bureau. The information gathered 
includes employment status, income, veteran status, education level, 
and disability information. For 2010, ACS estimates Indiana is home to 
approximately 469,600 veterans, or nearly 10 percent of its adult 
population. However, almost 200,000 Indiana veterans are over 65 and 
generally not in the workforce. Veterans ages 18 to 65 years total 
approximately 276,600. Veterans between the ages of 18 and 34 total 
approximately 30,500; between the ages of 35 and 54 total approximately 
126,800; and between the ages of 55 and 64 total approximately 119,300. 
94.4 percent of Indiana's veterans are male and 5.6 percent are female.
    According to ACS, the 2010 unemployment rate among Indiana's 
veterans was 12.4 percent, compared with the total state unemployment 
rate of 10.7 percent during the same time period. There are 
approximately 3,300 veterans collecting benefits at present. Almost 
12,000 veterans have collected benefits over the past 12 months.
    The United States Bureau of Labor Statistics (BLS) recently 
conducted a survey that indicated, among other findings, that the 
unemployment rate of Gulf War II era veterans 18 years or older in the 
State of Indiana was 23.6 percent. Beyond the overall results of this 
survey, BLS has not provided any information on the survey's 
methodology nor the specific data that were collected. DWD believes 
this figure is overstated. It is our view that unemployment among these 
veterans is somewhat but not dramatically higher than that of the 
workforce as a whole.
    Additionally, ACS indicates that the education level of Indiana's 
veterans tends to be higher than that of civilians, with the exception 
of those that have obtained a bachelor's degree or higher. 18.7 percent 
of Indiana's veterans have obtained a bachelor's degree or higher, 
compared with 23.2 percent of the non-veteran population. In addition, 
according to ACS, in 2010 a smaller percentage of Indiana's veterans 
(7.4 percent) lived below the poverty level than the non-veteran 
population (13.8 percent), but a higher percentage of Indiana's 
veterans had a disability (26.1 percent) than the non-veteran 
population (14.3 percent).
Indiana Workforce Investment System and Programs
    DWD is the state agency that oversees and manages unemployment 
insurance compensation and federally-funded employment and training 
programs in Indiana. DWD manages federally-funded Workforce Investment 
Act, Wagner-Peyser Act, Trade Adjustment Assistance, Adult Education, 
and Veterans Employment and Training programs. DWD receives 100 percent 
of the budget for its education and training programs from Federal 
funds made available through the United States Department of Labor 
Employment and Training Administration, with the exception of the Adult 
Education program, for which we receive both state and Federal funds.
    Like all other states, Indiana is divided into a number of local 
service areas, which provide federally-funded employment and training 
services through a network of One-Stops (called WorkOne centers in 
Indiana). There are twelve local service areas, operating within 11 
economic growth regions, and 90 WorkOne centers throughout the regions.
    Each of the local service areas is governed by a workforce board, 
comprised of local business leaders, economic development 
professionals, labor and education representatives, and other 
community-based organization leaders. These boards hire staff and 
service-provider organizations to manage the WorkOne centers and to 
offer workforce investment services in collaboration with the staff of 
DWD.
    All customers who visit a WorkOne center are offered access to 
services that assist them in gaining the skills necessary to become 
reemployed at a self-sufficient level, and will provide the customer 
with support throughout his or her period of unemployment. 
Specifically, WorkOne centers provide customers with access to 
unemployment insurance compensation, case management and career 
counseling, job search assistance, skill-building workshops, short and 
long-term training, as well as other supportive services. All enrolled 
WorkOne customers are placed into one of two tracks: the job-to-job 
track, where staff provide the customer with reemployment assistance; 
or the job-to-training-to-job track, where it is determined that the 
client needs additional training in order to become employed at a self-
sufficient level.
    DWD also places a high emphasis on making on-the-job training 
available to eligible, unemployed workers. Through on-the-job training, 
an unemployed worker is hired by an employer, and provided training on 
the specific skills needed to successfully perform the job. Since 2009, 
DWD has invested nearly $6 million in on-the-job training, based on the 
belief that it is beneficial to both of its primary customers: 
unemployed individuals and employers. Unemployed individuals are 
provided with a job and the opportunity to learn new skills and 
employers are reimbursed for up to 50 percent of the participant's 
wages over a 6 month period in order to compensate for training costs.
    In addition to the services made available to unemployed customers, 
WorkOne centers also offer a number of services to local employers, 
including job matching, job profiling, management of large hiring 
events, information regarding employment-based tax credits, and on-the-
job training funds as just indicated. DWD provides annual funds which 
support a number of business services staff, who are responsible for 
connecting with local employers and providing them with no-cost, 
workforce services.
Indiana Veteran Employment and Training Services
    Indiana is committed to providing quality employment services to 
veterans at its WorkOne centers. Veterans receive priority service, and 
most of the centers have an on-site veteran specialist who assists with 
employment needs. DWD currently receives funding to employ sixty-two 
Veteran Employment and Training staff throughout Indiana. Thirty-four 
of these positions are Local Veteran Employment Representatives (LVER) 
and twenty-eight of these positions are Disabled Veteran Outreach 
Program Specialists (DVOP). All of the LVERs are required to be 
veterans and DVOPs must be veterans with a service-connected 
disability.
    Services that are provided to eligible veterans at WorkOne centers 
include:

    <bullet>  Orientation to IndianaCAREERConnect.com, the State's 
largest jobs-board;
    <bullet>  Assistance looking for a job, developing a resume, and 
preparing for an interview;
    <bullet>  Direct referral to jobs;
    <bullet>  Referral to other Federal, state and local agencies (as 
appropriate to their self-sufficiency needs);
    <bullet>  Assistance transitioning into civilian employment;
    <bullet>  Training incentives and grants;
    <bullet>  Guidance finding vocational training;
    <bullet>  Post-employment counseling; and
    <bullet>  Occupational skills assessment.

    In order to ensure that veterans receive access to skill-building 
activities and training, DWD has pursued a number of special employment 
and training grants. Indiana was awarded and is currently managing a 
special Veterans Workforce Investment Program Grant. This United States 
Department of Labor grant of $500,000, which was supplemented with 
$250,000 from DWD, is designed to provide training that results in 
industry-recognized certifications to veterans with service-connected 
disabilities, veterans that have significant barriers to employment, 
and all recently separated veterans. Additionally, for all training 
programs overseen and managed by DWD, eligible veterans are provided 
with priority of service. This priority ensures that veterans are 
provided with first access to skill-building training when funds or 
available training slots are limited.
    Additionally, DWD ensures that veterans are provided with priority 
of service in its job matching program. Veterans are provided with 
first access to open positions posted on IndianaCareerConnect.com; the 
open positions are held for twenty-four hours, allowing only qualified 
veterans to apply.
    DWD recognizes the barriers that returning veterans face when 
attempting to access services, locate suitable employment, and reenter 
the civilian workforce. In order to assist returning veterans in 
accessing services, DWD has positioned a LVER at Camp Atterbury to 
assist demobilizing National Guard and Reserve personnel. This LVER 
provides servicemembers with employment information during their 
demobilization. In addition, the LVER collects individual employment 
information, and then provides it to the servicemember's state 
employment agency. DWD also continues to support the National Guard 
Yellow Ribbon Transition Programs around the State and at the two 
National Guard Air Bases. Although demobilizations have decreased in 
their frequency and size, DWD remains committed to providing employment 
services to this program. Since January 2010, several thousand soldiers 
and airman have received employment information through Camp Atterbury 
and/or participated in a Yellow Ribbon Program.
    Finally, in order to assist veterans with locating suitable 
employment, DWD has supported and managed several career fairs 
specifically targeted to veterans. In April 2011, DWD sponsored 
``Operation Hire a Hoosier Veteran'' career fair in Central Indiana. 
Over 100 employers and vendors participated in this career fair, and 
several hundred Indiana veterans attended the fair and had the 
opportunity to network with employers, submit resumes and applications 
for job openings, interview for positions, and attend skill-building 
workshops offered by DWD staff.
    From July 1, 2010 to June 30, 2011, over 20,000 veterans were 
provided with employment and training services in the state of Indiana 
through WorkOne centers.
Northeast Indiana Veteran Employment and Training Services
    Approximately 32,000 veterans, age 18 to 65, live in northeast 
Indiana, representing nearly 12 percent of Indiana's working-age 
veterans. This number continues to grow as veterans return from Iraq 
and Afghanistan. There is a great need to ensure veterans in the region 
receive job training opportunities that will help them develop the 
skills required to find civilian employment.
    Over the past year, WorkOne offices in northeast Indiana have 
conducted a comprehensive outreach campaign to veterans and veteran-
serving organizations in the region. This campaign has had a singular 
mission: to increase the number of veterans engaged in workforce 
services. Activities included outreach efforts at Veteran's 
Administration locations that provided on-site delivery of a wide range 
of job-search workshops (resume writing, interview skills, and online 
job searches); outreach efforts to regional homeless facilities, 
including the Fort Wayne Rescue Mission; and monthly outreach efforts 
to regional veteran's organizations (VFW, American Legion, and others) 
to ensure that the veterans community is prepared to identify and refer 
veterans in need of assistance to WorkOne Northeast for services.
    Additionally, a military career fair was recently held in northeast 
Indiana that focused on supporting reservists/guardsmen and veterans. 
At this event, a dozen human resources professionals from regional 
employers were brought together to share information about available 
job openings and to offer advice and instruction to veterans in 
attendance on the best ways to access these opportunities. This event 
had the full support of the Wing Commander and his staff and will be 
replicated in other events.
    In the past year, WorkOne centers in northeast Indiana provided 
employment and training services to approximately 3,000 veterans. 
Significantly, nearly 25 percent of these veterans received training to 
improve their technical skills, and increase their prospects for 
gainful employment. Also, during the same time period, veterans served 
through the WorkOne Northeast centers received approximately 5,000 
referrals for potential employment, and were provided with career 
counseling support by WorkOne staff on approximately 2,000 occasions. 
The focus of this career counseling has been to help veterans 
understand and appreciate the transferability of their military skill 
sets to the civilian labor market.
    Northeast Indiana meets or exceeds performance targets established 
for Veterans Employment and Training programs by the United States 
Department of Labor. During the current program year, WorkOne centers 
in northeast Indiana exceeded nearly all of their performance targets. 
For example, the Consolidate Veteran Entered Employment Rate was 61 
percent, which exceeded the target by 11 percent, and the Consolidated 
Veterans Average Earnings was $30,060 annually.
Challenges Affecting Veteran Employment Opportunities
    DWD believes that there are four primary challenges veterans 
encounter regarding employment opportunities. First, veterans have 
predominantly been employed in industries among the hardest hit by the 
economic recession. According to a report issued by the U.S. Congress 
Joint Economic Committee Chairman's staff on May 2011, Post-9/11 
veterans were more likely than non-veterans to have been employed in 
manufacturing, construction, transportation, and other industries that 
experienced significant job losses during 2008 and 2009. DWD agrees 
with this finding. Veterans continue to struggle with securing gainful 
employment, especially in the manufacturing sector, which is down about 
18 percent from its peak employment in 2007. While veterans from the 
Guard or Reserves receive statutory protection to retain their pre-
deployment position upon completion of their deployment, if an 
employer's workforce has been downsized due to layoffs, the returning 
veteran may not always find a job upon return.
    The second challenge deals with the skills veterans develop while 
serving in the military and their ability to translate those skills 
into private sector employment. DWD has found that some of the skills 
veterans develop do not always directly correlate to certifications and 
credentials often required for private employment. For example, a 
veteran may have operated heavy equipment and vehicles during his or 
her service, but does not hold a commercial drivers license that is 
often a requirement for operating heavy transportation vehicles in 
private sector employment. Additionally, DWD has found that many 
veterans experience difficulty expressing what specific skills they 
acquired throughout their service, and how those skills transfer to the 
requirements of private sector job openings. Many veterans are modest 
about their service, and particularly the skills and aptitudes they 
developed while serving. Although a veteran may have developed and 
utilized essential job skills, his or her inability to relate those 
skills to the requirements of a job opening can lead a hiring manager 
to not fully appreciate the skills a veteran has to offer.
    Third, while a veteran is deployed overseas, a number of facets of 
his or her home life may have changed. Some of these changes can 
include the birth of a child, the loss of a family member, or even the 
dissolution of a marriage. In addition, returning veterans may need to 
locate a place to live, establish bank accounts, locate transportation, 
and complete many other daily activities for which they may not have 
been responsible during their service. These factors often complicate 
the job search process, which may be given less initial priority by the 
veteran.
    Finally, there is an increasing number of veterans returning with 
some form of a physical or mental disability. With advances in medical 
care, fatalities have declined but an increasing percentage of veterans 
return home with a physical disability potentially limiting future 
employment opportunities. In addition, there are incidences of mental 
health issues, including Post-Traumatic Stress Disorder (PTSD), among 
the veteran population returning from abroad. In DWD's experience, 
Indiana's employers have displayed a great willingness to provide 
employment opportunities to veterans who have served the United States. 
However, some employers may be somewhat cautious in hiring veterans due 
to concerns about how PTSD or other mental health issues may affect 
performance in the workplace.
Conclusion
    Mr. Chairman, we at the Indiana Department of Workforce 
Development, recognize our obligation to veterans and honor their 
service to our country. We will continue to make every resource 
available to veterans, ensuring they receive the services needed to 
best overcome any barriers to employment opportunities they may face.
    Thank you for allowing me to appear before you today. I would be 
pleased to respond to any questions from Members of the Subcommittee.

                                 <F-dash>
       Prepared Statement of Gary Tyler, Indiana State Director,
  Veterans' Employment and Training Service, U.S. Department of Labor
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Committee:
    Thank you for the opportunity to testify before the Committee about 
the work we are doing at the Department of Labor (DOL or Department) to 
address the important issue of decreasing the unemployment rate for 
Veterans, National Guard, and Reservists. We also appreciate the 
opportunity to discuss the work we are doing here in Indiana. With over 
500,000 veterans living in the state, it is critical that we provide 
them with the services and support they need to find and obtain good 
jobs.
    My name is Gary Tyler, and as the Indiana State Director for the 
Department of Labor's Veterans' Employment and Training Service (VETS), 
I am dedicated to helping our Veterans and returning Servicemembers 
achieve that goal. I am accompanied today by Heather Higgins, my 
Regional Administrator.
    VETS proudly serves Veterans and transitioning Servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. We do this through a variety of nationwide 
programs that are an integral part of Secretary Solis's vision of 
``Good Jobs for Everyone.''
    I would like to begin by briefly discussing some of these programs 
along with other initiatives that assist America's Veterans in getting 
to or back to work and then focus specifically on information for 
Indiana that you requested in your invitation.
Jobs for Veterans State Grants Program
    The first program that I would like to highlight for you is the 
Jobs for Veterans State Grants (JVSG) Program. Under this grant 
program, the Department offers employment and training services to 
eligible Veterans by allocating funds to State Workforce Agencies in 
direct proportion to the number of Veterans seeking employment within 
their state.
    The Jobs for Veterans State Grants (JVSG) program funds two 
occupations, the Disabled Veterans Outreach Program specialist (DVOP) 
and the Local Veterans Employment Representatives (LVER). DVOP 
specialists provide outreach services, and intensive employment 
assistance to meet the employment needs of eligible Veterans. LVER 
staff conducts outreach to employers and engages in advocacy efforts 
with hiring executives to increase employment opportunities for 
Veterans, encourages the hiring of disabled Veterans, and generally 
assists Veterans to gain and retain employment.
    Last year, the JVSG provided services to nearly 589,000 Veterans, 
and 201,000 Veterans found jobs.
Homeless Veterans' Reintegration Program
    To meet the needs of homeless Veterans and help reintegrate them 
into the workforce, VETS administers the Homeless Veterans' 
Reintegration Program (HVRP). Through HVRP, the Department provides 
competitive grants to state and local workforce investment boards, 
state agencies, local public agencies, and private non-profit 
organizations, including faith-based organizations and neighborhood 
partnerships. HVRP grantees provide an array of services utilizing a 
holistic case management approach that directly assists homeless 
Veterans and provides training services to help them to successfully 
transition into the labor force.
    In Program Year (PY) 2009, over 14,000 homeless Veterans 
participated in this program through 96 grants, and 8,470 were placed 
into employment. Data for PY 2010 is not yet available, as figures for 
the 4th quarter are still being verified.
Veterans' Workforce Investment Program
    Yet another way the Department is working to help Veterans get back 
to work is through the Veterans' Workforce Investment Program (VWIP). 
Through VWIP, the Department awards competitive grants geared toward 
focused training, re-training and employment opportunities for recently 
separated Veterans, Veterans with service-connected disabilities, 
Veterans with significant barriers to employment and Veterans who 
served on active duty during expeditions or campaigns for which 
specific badges were awarded. These grants are awarded to meet the 
needs of employers for qualified workers in high demand industries, 
particularly those occupations requiring a license or certification. 
The grants also promote the integration of public, private, and 
philanthropic organizations with the workforce system to create synergy 
and encourage innovative strategies to serve our Veterans better.
    In FY 2009, VWIP was refocused to provide training and employment 
services in green energy occupations as envisioned in the Green Jobs 
Act of 2007. Nationwide, there currently are 22 grants serving over 
4,000 Veterans in FY 2011. Here in Indiana, training and placement 
services have been provided to approximately 3,000 Veterans statewide 
through the VWIP program since 2002.
Transition Assistance Program
    Our primary program for assisting individuals with their transition 
from the military to the civilian workforce is the Transition 
Assistance Program (TAP). TAP is an interagency program delivered via a 
partnership involving the Department of Defense, DOL VETS, the 
Department of Veterans Affairs, and the Department of Homeland 
Security. VETS provides an employment workshop that is a comprehensive 
two and a half day program during which participants are provided 
relevant skills and information, such as job search techniques, career 
decision-making processes, and current labor market conditions.
    Currently, VETS uses a mix of contractors, VETS Federal staff, 
DVOPs, and LVERs as TAP facilitators. Starting in late 2012, VETS will 
transition to all skilled contract facilitators.
    As you know, VETS is currently in the process of redesigning and 
transforming the TAP employment workshop. We are creating experiential, 
effective, and enduring solutions for a successful transition from 
military to civilian life and employment. The new TAP will be based on 
established best practices in career transition.
    Last year, nearly 130,000 transitioning Servicemembers and spouses 
attended a TAP employment workshop given at one of 272 locations world-
wide.
Employer Partnerships
    VETS is also implementing a new approach to employer outreach that 
involves pilot programs and partnerships with the private sector, 
including the U.S. Chamber of Commerce and the Society for Human 
Resource Management (SHRM). These partnerships are giving us much 
broader access to employers so that we can communicate the value of 
hiring a Veteran and how to access this extraordinary source of talent. 
It also allows us to educate employers about the unique skills Veterans 
bring with them based on their military experience. Connecting the 
talent pool with the many companies looking to hire Veterans allows for 
a more efficient hiring process for many Veterans and employers.
    The Chamber is working to hold 100 hiring fairs exclusively for 
Veterans, transitioning Servicemembers and their spouses. In the 
partnership, the U.S. Chamber and its affiliates focus primarily on 
securing the participation of employers while the VETS team focuses on 
obtaining participation by Veterans, transitioning Servicemembers and 
their spouses.
    In fact, the Chamber is scheduled to partner with the VETS Indiana 
Office, Department of Veterans' Affairs, Indiana National Guard, 
Indiana Workforce Development, and others in the sixth annual 
``Operation: Hire a Hoosier Vet'' career fair at Stout Field, Indiana 
National Joint Forces Headquarters in Indianapolis on April 12, 2012. 
VETS is working with SHRM to identify opportunities for VETS state 
managers to meet with local SHRM chapters to connect Veterans seeking 
employment with companies who are hiring. For VETS this is an effective 
and efficient way to connect employers and Veterans. We are also 
working with SHRM in the development of an H.R. Toolkit that will 
provide employers with the methods and procedures to establish a 
Veteran hiring program and to hire Veterans.
Indiana Specific Information
    In your letter of invitation, you requested certain information 
about Veterans in Indiana. While some specific data is unavailable, we 
have nevertheless been certain to provide the most current information 
available. As you know, Indiana operates a Public Labor Exchange 
primarily funded by the U.S. Department of Labor to assist all job 
seekers with their employment needs. While it is available to all 
populations, Veterans are given priority of service. In Indiana, the 
Public Labor Exchange is known as the Work One Employment System of the 
Indiana Department of Workforce Development (DWD). The services and 
assistance offered at DWD range from employment preparation and 
comprehensive employment placement services, to intensive services 
through a case management approach for Veterans with special needs. 
Moreover, in FY 2011, DOL has approved funding for 61.5 FTE staff 
positions to assist Veterans, divided between DVOPs and LVER staff.
Level of Education of Veterans Seeking Employment Assistance
    Over the past year, 26,265 Veterans have received services through 
DWD. Of the total population of Veterans served through the public 
labor exchange, 988 or 3.76 percent reported less than a high school 
diploma while 13,624 or 51.8 percent have a high school degree or a 
GED. The total number of Veterans reporting achievement of a post-high 
school degree or certification is 5489, or 20.8 percent. (See table 
below.)

------------------------------------------------------------------------
                   Data Element                      Indiana    Percent
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning      26,265
 Servicemembers
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning         988      3.76%
 Servicemembers who were not HS Graduates
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning      13,624      51.8%
 Servicemembers who had a HS degree or GED
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning       5,489      20.8%
 Servicemembers who had a Post-Secondary degree or
 are Certified
------------------------------------------------------------------------
Source: U.S. Department of Labor, Employment and Training Administration
  Form ETA 9002 A: ``Services to Participants'' July 1, 2010 through
  June 30, 2011.
U.S. Department of Labor, and Employment and Training Administration
  Form ETA 9002 D Services to Participants, April 1, 2010 through March
  31, 2011.
Education level is not a required field when registering with the One-
  Stop Career Center system; therefore, the breakdown by education level
  does not equal the total number of Veterans served.

Average Placement Salary by Level of Education for Veterans
    In Indiana, the 6 month Average Earnings for veterans are: $15,378 
or $30,756 per annum. The principle source of information for this data 
element is the U.S. Department of Labor's Employment and Training 
Administration ETA 9002 Report, Services to Participants for Program 
Year Period July 1, 2010 through June 30, 2011. While specific 
placement salary data by education level are not available, the ETA 
9002, Performance Outcomes for Veterans, Eligible Persons and 
Transitioning Servicemembers does provide Average Earnings data.
Length of Unemployment for Veterans by Education Level
    The Current Population Survey provides national data about the 
employment status of the civilian non-institutional population by 
educational attainment, age, sex, race, and Hispanic or Latino and Non-
Hispanic ethnicity. The same source provides data for unemployed 
persons by duration of unemployment, educational attainment, sex, and 
age as an annual average for the general population. However, data for 
length of unemployment by education level for Veterans as a separate 
population is not available.
Rate of Unemployment for Veterans by Education Level
    In terms of unemployment rates for the general population, the 
Local Area Unemployment Statistics (LAUS) reports a 10.2 percent rate 
for Indiana in 2010. Comparatively, the Current Population Survey 
(CPS), collected by the Census Bureau for the Bureau of Labor 
Statistics, shows that the unemployment rate for Veterans was 9.0 
percent in Indiana on average in 2010. Unemployment rate data by 
education level by state is not available. (See table below.)

------------------------------------------------------------------------
                        Data Element                           Indiana
------------------------------------------------------------------------
                    Unemployment Rates:
------------------------------------------------------------------------
Calendar Year 2010 (LAUS) General Population                      10.2%
------------------------------------------------------------------------
Calendar Year 2010 (CPS)--Veterans                                 9.0%
------------------------------------------------------------------------
Source: U.S. Department of Labor, Bureau of Labor Statistics

Number of Uniformed Services Employment and Reemployment Rights Act 
        (USERRA) Complaints Filed
    VETS is honored to serve our Nation's Veterans. One of the agency's 
top priorities is to protect the employment rights of servicemembers 
when called to serve on active duty in the U.S. Armed Forces. The goal 
of the USERRA is to ensure that no member or prospective member of the 
U.S. Armed forces endures any disadvantage or discrimination in 
employment because of their affiliation with the military, and to 
secure the reemployment rights of members of the military after active 
duty service.
    VETS works closely with DoD's Office of the Assistant Secretary for 
Reserve Affairs' Employer Support of the Guard and Reserve (ESGR) to 
ensure that servicemembers are informed on their USERRA rights before 
and after they are mobilized. We conduct continuous USERRA outreach to 
educate and inform servicemembers and employers of their rights and 
responsibilities under the law.
    The use of the National Guard and Reserves has increased 
dramatically in recent years, with more called to active duty than any 
other time since the Korean War. This has increased the complexity of 
issues resulting from the challenges faced by servicemembers and their 
families due to lengthier and multiple deployments. This is true for 
all servicemembers but because many National Guard and Reserve Units, 
in particular, contend with civilian employment issues, the claims 
activity post 9-11 has increased dramatically nationwide. Employers 
face equal hardships in the reintegration of servicemembers into the 
labor force as they deal with lengthy and multiple absences.
    Your invitation asked for the number of USERRA complaints filed in 
Indiana. Below, is the breakdown of complaints filed within the last 5 
years.

------------------------------------------------------------------------
                        Data Element                           Indiana
------------------------------------------------------------------------
                  USERRA Complaints Field:
------------------------------------------------------------------------
Federal Fiscal Year 2007                                             32
------------------------------------------------------------------------
Federal Fiscal Year 2008                                             27
------------------------------------------------------------------------
Federal Fiscal Year 2009                                             32
------------------------------------------------------------------------
Federal Fiscal Year 2010                                             25
------------------------------------------------------------------------
Federal Fiscal Year 2011                                             37
------------------------------------------------------------------------
Source: USDOL/VETS Uniformed Services Employment and Reemployment Rights
  Act Information Management System

Conclusion:
    Thank you again for allowing me to testify today and for your 
tireless support and commitment to our Nations Veterans. DOL and VETS 
look forward to continuing to work with you and your staff on Veterans' 
employment initiatives. I look forward to responding to your questions.

                                 <all>

</pre></body></html>
